U. S. Government Printing Office • Office of Inspector General

S e m i a n n ua l R e p o r t t o C o n g r e ss
                             October 1, 2009 to March 31, 2010




             50% Black + 100% Black




              PMS 540 + 100% Black




             White (version for reverse)
The U.S. Government                                       The Office of
Printing Office                                           Inspector General


F                                                         T
         or well over a century, the U.S. Government               he Office of Inspector General (OIG) was cre-
         Printing Office (GPO) has fulfilled the needs             ated by the GPO Inspector General Act of
         of the Federal Government for information                 1988—title II of Public Law 100-504 (October
products and distributing those products to the public.   18, 1988) (GPO IG Act). The GPO OIG is dedicated to
GPO is the Federal Government’s primary resource for      acting as an agent of positive change—changes that
gathering, cataloging, producing, providing, authen-      will help GPO improve its efficiency and effectiveness
ticating, and preserving published U.S. Government        as the Agency undertakes an era of unprecedented
information in all its forms. GPO also produces and       transformation. Through evaluation of GPO’s sys-
distributes information products and services for each    tem of internal controls, the OIG recommends poli-
of the three branches of Government.                      cies, processes, and procedures that help prevent and
      Under the Federal Depository Library Program,       detect fraud, waste, abuse, and mismanagement. The
GPO distributes a wide range of Government publi-         OIG also recommends policies that promote econ-
cations in print and online to more than 1,250 public,    omy, efficiency, and effectiveness in GPO programs
academic, law, and other libraries across the coun-       and operations.
try. In addition to distributing publications through           The OIG informs the Public Printer and Congress
that library system, GPO provides access to official      about problems and deficiencies as well as any posi-
Federal Government information through public             tive developments relating to GPO’s administration
sales and other programs, and—most prominently—           and operation. To accomplish those responsibilities,
by posting more than a quarter of a million titles        the OIG conducts audits, assessments, investigations,
online through GPO Access (www.gpoaccess.gov).            inspections, and other reviews.
      Today more than half of all Federal Government
documents begin as digital products and are pub-
lished directly to the Internet. Such an evolution of
creating and disseminating information challenges
GPO, but it has met those challenges by transform-
ing itself from primarily a print format entity to an
agency ready, willing, and able to deliver from a dig-
ital platform a high volume of information to a mul-
titude of customers.
      Although a transition to digital technology
changes the way products and services are created
and offered, GPO strives to continually satisfy the
requirements of Government and accomplish its
mission of Keeping America Informed.
con t en ts




Message from the Inspector General . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3
Highlights of This Semiannual Report . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5
OIG Management Initiatives . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7
Personel Update . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7
Council of Inspectors General
for Integrity and Efficiency . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 8
Review of Legislation and Regulations . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 8


GPO Management Challenges . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 9


Office of Audits and Inspections . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 21
A.	Summary of Audit and Inspection Activity. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                             21
B.	Financial Statement Audit. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                            21
C.	Audit and Inspection Reports . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                    22
D.	Status of Open Recommendations. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                               25

Office of Investigations . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 33
A.	Summary of Investigative Activity. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                            33
B.	Types of Cases. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .      34
C.	Summary of Investigative Accomplishments. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                                   35
D.	Other Significant Activities. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                            38

Appendices . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .   39
A.	Glossary and Acronyms. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                          39
B.	Inspector General Act Reporting Requirements. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                                        42
C.	Statistical Reports . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .            43
	Table C-1: Audit Reports with Questioned and
	Unsupported Costs . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                   43
	Table C-2: Audit Reports with Recommendations
	That Funds Be Put to Better Use . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                         44
	Table C-3: List of Audit and Inspection Reports Issued
	 During Reporting Period. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                            45
	Table C-4: Investigations Case Summary. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                           46
	Table C-5: Investigations Productivity Summary . .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                                          48




                                        S e m i a n n u a l r e p o r t t o c o n g r e ss                                                                               1
                               M e s sag e f ro m t h e
                               Inspector Gener al




Security is always
                        I
                               am pleased to present this Semiannual Report to Congress, which covers the
                               activities of the GPO Office of Inspector General for the period October 1, 2009
  excessive until              through March 31, 2010.
 it’s not enough.             Of particular importance during this reporting period was our work on secu-
                        rity issues. The Office of Audits and Inspections (OAI) finalized an audit of the
   — Robbie Sinclair,
                        security of the e-Passport components supply chain. GPO is the sole producer of
   Head of Security,
   Country Energy,
                        blank e-Passports to the Department of State. As further noted in the OAI section,
    NSW Australia       the audit identified that the e-Passport supply chain security process was largely
                        informal and GPO offices with overlapping responsibility should have been coor-
                        dinating their work efforts rather than working autonomously.
                              Such an informal and uncoordinated process led to, among other things,
                        insufficient security audits of critical e-Passport suppliers, lack of contractual
                        control over subcontractors providing critical e-Passport components, and lack of
                        contractor security plans or security-related requirements for some suppliers. We
                        will monitor management’s plan to implement necessary internal controls over
                        the supply chain to ensure the security of e-Passport production.
                              In addition, the Office of Investigations investigated the loss of 18 laptop
                        computers from an agency storage area. We were unable, however, to determine
                        the disposition of these laptops due to the lack of security and inventory control
                        over these materials. As a result, an audit is underway that will focus on security
                        of agency property and management controls.
                              In this report, we also update the most significant management challenges
                        facing the Agency. We note that human capital operations and management
                        remains a critical challenge to the Agency. We are hopeful that the ongoing reor-
                        ganization and focus on customer-driven solutions will bring about much needed
                        change and direction. As noted previously, commitment by GPO senior manage-
                        ment should bring about significant operational improvement.
                              The GPO OIG remains committed to quality, integrity, accountability, and
                        transparency as we continue to fulfill our mission and goals. I encourage you to
                        visit our website (www.gpo.gov/oig) and, to keep informed of OIG activities, please
                        sign up to receive automatic email updates.



                                                                           J. Anthony Ogden
                                                                           Inspector General
                                                                           U.S. Government Printing Office

                                                 S e m i a n n u a l r e p o r t t o c o n g r e ss               3
Hi g h l i g h t s o f t h i s
S e mi a n n ua l R e p o r t




T
        he Office of Audits and Inspections (OAI) issued six new audit
        and assessment reports. Those 6 reports contained 45 recom-
        mendations for improving GPO operations, including strength-
ening internal controls throughout the Agency. OAI issued a supply
chain security audit of the Agency’s e-Passport production activities.
OAI continued to oversee the Independent Verification and Validation
(IV&V) efforts related to implementation of the Federal Digital System
(FDsys) and the annual audit of GPO’s financial statement.
     OAI’s significant accomplishments during this reporting period
include the following:
•	Completed an audit report assessing the adequacy of GPO’s secu-
  rity over its e-Passport components. The audit identified that the
  e-Passport supply chain security process was largely informal and
  that different GPO offices with overlapping responsibility related
  to e-Passport production or security should have been coordinat-
  ing their work rather than working autonomously, which would
  have ensured proper security protocols over critical e-Passport
  component suppliers. Such an informal and uncoordinated pro-
  cess led to insufficient security audits of critical e-Passport sup-
  pliers, lack of contractual control over subcontractors providing
  e-Passport components, lack of contractor security plans or secu-
  rity-related requirements, and lack of required contract file doc-
  umentation for some suppliers. Management concurred with our
  recommendations, which were designed to strengthen the secu-
  rity of the e-Passport supply chain.
•	Completed our oversight responsibilities with respect to GPO’s
  annual financial statement audit for which the Agency again
  received an unqualified opinion from the Independent Public
  Accounting (IPA) firm of KPMG, LLP.
•	Completed an assessment of GPO’s compliance with the Fed-
  eral Information Security Management Act (FISMA), finding that
  although the Agency has made some progress in complying with
  FISMA, additional improvements are needed.
•	Completed an assessment of GPO’s network vulnerability manage-
  ment finding that the Agency implemented a robust and effective

                 S e m i a n n u a l r e p o r t t o c o n g r e ss      5
      program that identifies and circumvents common               tops. The findings of the investigation were referred
      internal and external network threats.                       to OAI, which initiated an audit of IT&S property
    •	Issued two quarterly IV&V reports on the FDsys and           management protocols.
       made recommendations designed to strengthen               •	As a result of a previously reported OI investigation,
       program management, particularly technical risks            which found that GPO employees failed to provide
       associated with risk management and configura-              truthful information during an administrative inves-
       tion management for future FDsys releases.                  tigation conducted by GPO Human Capital Office,
          The Office of Investigations (OI) opened 10 full         three employees retired after receiving notice of ter-
    investigations and 26 complaints for preliminary               mination and the fourth received a 30-day suspen-
    investigation, while closing 15 investigations and 28          sion and demotion.
    complaints (8 of which were closed with no action). At            OI continues investigations into allegations of
    the end of this reporting period, the OI has 33 ongoing      false statements, false claims, and/or bid collusion
    investigations and 22 open complaints. Additionally,         by GPO print vendors. OI has the assistance of the
    seven investigations resulted in referrals to GPO            Department of Justice Antitrust Division, which con-
    management for potential administrative action,              tinues to evaluate the cases for possible criminal and/
    and eight complaints were referred to GPO manage-            or civil action.
    ment or other agencies.                                           The Office of Administration/Legal Counsel
          Of the open complaints and investigations, 31          (OALC) provides legal advice and counsel on issues
    involve allegations of procurement fraud, demon-             arising during audits, inspections, and investiga-
    strating increased OI efforts in addressing procure-         tions, including opinions regarding legal accuracy
    ment and financial fraud vulnerability within GPO.           and sufficiency of OIG reports. OALC manages
    This heightened increase in procurement fraud cases          administrative and management issues as well as
    is just one of the results of OI efforts to engage and       congressional and media relations and requests for
    educate management, Print Procurement officials,             information. OALC often reviews and edits audit,
    and other acquisitions employees.                            inspection, and investigative reports before the IG
          Several ongoing investigations are being con-          approves.
    ducted in coordination with the Department of                     During this reporting period, OALC accom-
    Justice, including its Antitrust Division. As part of        plished the following:
    the investigations, the Inspector General (IG) issued
                                                                 •	Reviewed, edited, and approved 12 subpoenas.
    12 subpoenas for documents this reporting period.
          Among OI’s significant accomplishments during          •	 Developed a Memorandum of Understanding with
    this reporting period include:                                  GPO’s IT&S to establish policies about access to
                                                                    and security of OIG digital information on GPO
    •	Investigated allegations that a GPO employee used or
                                                                    servers.
      attempted to use her position for personal financial
      gain and benefit close friends. As part of this investi-   •	 Developed an internal administrative policy for
      gation, OI staff worked jointly with the Department           streamlining and formalizing administrative pro-
      of Justice Public Integrity Section, and management           cedures.
      proposed terminating the employee.                         •	 Drafted an information security policy for discus-
    •	Investigated disposition of 18 laptop/portable com-           sion to be completed and finalized during the next
      puters identified as missing from an Information              reporting period.
      Technology and Systems (IT&S) Division storage             •	 Began the internal process for an update of the
      area at the GPO headquarters building. We reported            OIG’s strategic plan.
      to management that as a result of a lack of security       •	Provided support to the IG in his capacity as Chair-
      and inventory controls in IT&S, OI was unable to             man of the Legislation Committee of the Council
      determine the final disposition of 18 missing lap-



6   Off i c e o f I n s p e c t o r G e n e r a l
  of Inspectors General on Integrity and Efficiency
  (CIGIE).
•	Received an award from the Council of Counsels to
  the Inspector General (CCIG) for exemplary service
  to the CCIG Website Working Group.
•	Acted on a variety of matters as the OIG liaison to
  the GPO General Counsel, including support with
  GPO litigation and personnel action matters and
  the GPO Chief of Staff’s office.


OIG Management Initiative s
During this reporting period, senior managers began
work on updating the OIG 3-year strategic plan. An
office-wide retreat in June 2010 is planned where
managers and employees will discuss the vision,
direction, and goals of the OIG and how to continue
to enhance, improve, and measure the success of its
operations. The OIG was also featured in the GPO
publication, Typeline, which is a quarterly magazine
issued to all GPO employees. The Typeline article dis-
cussed the role and work of the OIG through personal
interviews with an investigator, Elisabeth Heller,
and an auditor, Karl Allen. The OIG will continue to
work on a communications strategy for reaching as
many GPO employees as possible to educate them
about the role of the OIG, employee rights, and the
importance of reporting wrongdoing and cooperat-
ing with the OIG.


Personnel Update
During this reporting period, Rebecca Sharek joined
OAI as a supervisory auditor. Rebecca brings 15 years
of audit experience to the OIG from the National
Aeronautics and Space Administration (NASA).
While at NASA, Rebecca was a Program Manager
in the OIG, where she supervised a variety of audits
related to the Manned Spaceflight Program and
Safety and Mission Assurance. She also worked as
the Audit Liaison and Business Systems Manager
at the John F. Kennedy Space Center. Rebecca is a
Certified Internal Auditor and graduated from
Rollins College in Florida. She has a Master’s Degree
                                                         Elisabeth Heller, special agent, and Karl Allen, supervisory
in Business Administration from the University of        auditor, were featured in the GPO employee publication
Central Florida.                                         Typeline. Rebecca Sharek joined the OIG as a supervisory
                                                         auditor.


                                                         S e m i a n n u a l r e p o r t t o c o n g r e ss             7
    Council of Inspectors Gener al                            2009, that IGs designate a Whistleblower Protec-
    for Integrit y and Efficiency                             tion Ombudsman within their offices.
    On October 14, 2008, the Inspector General Reform             Legislative branch IGs continued to meet
    Act of 2008, Public Law 110-409, established the        quarterly in response to a Senate Appropriations
    CIGIE. The CIGIE addresses integrity, economy,          Committee request that the IGs throughout the leg-
    and effectiveness issues that transcend individ-        islative branch communicate, cooperate, and coor-
    ual Government agencies and helps increase pro-         dinate with one another on an informal basis. The
    fessionalism and the effectiveness of personnel by      meetings continue to improve communications and
    developing policies, standards, and approaches aid-     contact between the legislative branch IGs. During
    ing in establishing a well-trained and highly skilled   this reporting period, the Inspector General for the
    workforce in OIGs. The GPO OIG—along with other         U.S. Capitol Police hosted the meeting. Some issues
    Legislative Branch OIGs—is a member of CIGIE.           discussed and under ongoing consideration include:
         The role of the CIGIE includes identifying,        •	 Shared training opportunities for legislative
    reviewing, and discussing areas of weakness and            branch OIG personnel.
    vulnerability in Federal programs and operations for    •	Cross-cutting legislative branch audits and inspec-
    fraud, waste, and abuse, and develop plans for coor-      tions to include concerns regarding agency protec-
    dinated Government-wide activities that address           tion of personally identifiable information (PII).
    those problems and promote economy and efficiency
                                                            •	 Joint efforts to improve environmental conditions
    in Federal programs and operations.
                                                               and reduce costs.
         In May 2009, the IG at GPO was elected to serve
    a 2-year term as Chairman of the CIGIE Legislation      •	 Development of consistent OIG privacy protection
    Committee. The Legislation Committee provides to           policies.
    the IG community helpful and timely information         •	Ongoing discussions regarding legislative issues
    about congressional initiatives. The Committee also       affecting the legislative branch OIG offices.
    solicits the IG community’s views and concerns in
    response to congressional initiatives and requests,
    and presents views and recommendations to con-          Re view of Legisl ation
                                                            and Regul ations
    gressional entities and the Office of Management
    and Budget (OMB).                                       The OIG, in fulfilling its obligations under the IG Act,
         On behalf of the CIGIE Legislation Committee,      reviews existing and proposed legislation and regu-
    the IG wrote letters and engaged in communications      lations relating to programs and operations at GPO.
    with several congressional committees on various        It then makes recommendations in each semiannual
    legislative matters affecting the IG community, most    report on the impact of legislation or regulations on
    significantly to:                                       the economy and efficiency of programs and opera-
    •	Express support for IG subpoena authority that        tions administered or financed by GPO. In an effort to
      includes attendance and testimony of non-Federal      assist the Agency in achieving its goals, we continue
      agency witnesses to aid audits and investigations     to play an active role in that area.
      that may be hampered by lack of cooperation of              Although there were no legislative proposals
      private contractors, grantees, former employees,      relating to GPO programs and operations, the OIG
      and other third parties.                              reviewed and provided comments on a proposed
                                                            Directive to protect PII.
    •	Convey the results of a CIGIE survey conducted to
      assess the sense of the IG community regarding
      a requirement under Senate Bill 372 (S-372), the
      Whistleblower Protection Enhancement Act of




8   Off i c e o f I n s p e c t o r G e n e r a l
g p o m a nag e m e n t
ch allenges




I
     n each Semiannual Report to Congress, the OIG identifies for
     management a list of issues most likely to hamper the Agency’s
     efforts if not addressed with elevated levels of attention and
resources. In this report, we have refreshed the list of management
challenges that we believe are critical for the Agency to address.

1. Human Capital Operations and Management. The issues facing
Human Capital (HC) operations and management at GPO were iden-
tified as a significant management challenge for several OIG semian-
nual reporting periods. HC operations are at the heart of effectively
accomplishing an agency’s mission. In essence, HC provides the ser-
vices necessary to acquire the most precious and important source of
productivity—its employees.
     Indeed, writing about the challenges of human capital, J.
Christopher Mihm recently noted that “[d]riven by long-term fiscal
constraints, changing demographics, evolving governance models,
and other factors, the federal government is facing new and more
complex challenges in the twenty-first century and federal agencies


                      GPO’s Top 10
                 Management Challenges


  	      1.	    Human Capital Operations and Management.
  	      2.	    Information Technology Management and Security.
  	      3. 	   Security and Intelligent Documents.
  	      4. 	   Internal Controls.
  	      5. 	   Protection of Sensitive Information.
  	      6. 	   Acquisitions and Print Procurement.
  	      7. 	   Financial Management and Performance.
  	      8.	    Continuity of Operations.
  	      9. 	   Strategic Vision and Customer Service.
  	     10. 	   Sustainable Environmental Stewardship.




                  S e m i a n n u a l r e p o r t t o c o n g r e ss    9
     must transform their organizations to meet these            and effectiveness in administering HC and human
     challenges. Strategic human capital management              resources management programs and systems.
     must be the centerpiece of any serious change in                 Among the significant findings of the OPM evalu-
     management strategy.”1 In today’s environment,              ation were that GPO (1) did not finalize its long-term
     successful HC operations are “results-oriented, cus-        strategic goals and objectives, (2) did not conduct a
     tomer-focused, and collaborative.”2                         workforce analysis identifying its mission-critical
          The Government Accountability Office (GAO)             occupations and competencies, (3) had no indication
     has identified four critical areas related to Strategic     that the existing HC function had the capacity and
     HC Management the OIG believes are relevant                 data structure needed to partner strategically with
     to GPO:                                                     managers to conduct workforce analysis and plan-
     •	 Leadership. Top leadership must provide com-             ning, and (4) did not assess its organizational, occu-
        mitted and inspired attention needed to address          pational, and individual needs or evaluate the train-
        human capital transformation issues.                     ing offered to determine how well it meets short- and
                                                                 long-range program needs. While management did
     •	 Strategic Human Capital Planning. HC planning
                                                                 not fully agree with the OPM findings, the Agency did
        efforts must be fully integrated with mission and
                                                                 indicate that it has either planned or initiated actions
        critical program goals.
                                                                 addressing the recommendations. We encourage
     •	 Acquiring, Developing, and Recruiting Talent. Agen-      management to undertake and complete all actions
        cies need to augment strategies to recruit, hire,        necessary to address these recommendations.
        develop, and retain talent.                                   We also believe that the Agency faces chal-
     •	 Results-oriented Organizational Cultures. Organi-        lenges in acquiring, developing, and retaining a
        zational cultures must promote high performance          diverse, qualified workforce with the right skill sets
        and accountability, empower and include employ-          for meeting both the Agency’s needs today and in
        ees in setting and accomplishing programmatic            the future. In September 2008, we completed a con-
        goals, and develop and maintain inclusive and            gressionally requested audit of GPO’s diversity pro-
        diverse workforces reflective of all segments of         grams, particularly those related to establishing a
        society.3                                                more diverse population in senior leadership posi-
           Based on our own experience as clients of HC, a       tions. The audit revealed that while GPO volun-
     recent investigation of a HC employee and the results       tarily adopted several components for establishing
     of recent internal and external HC reviews, we are          a model Federal Government diversity program,
     concerned that management has not placed enough             improvements could be made toward enhanc-
     emphasis on addressing these four areas to trans-           ing diversity of the Agency’s corps of senior-level
     form HC operations and management. First, we noted          employees. We recommended in the report that the
     previously that the Office of Personnel Management          Public Printer adopt all or a combination of the lead-
     (OPM) completed an HC Management Review of GPO              ing practices that the GAO recommends for estab-
     in late 2008. The objectives of the review were to deter-   lishing a model Federal Government program. GPO
     mine whether GPO adhered to merit systems princi-           management agreed with our recommendations.
     ples as well as complied with applicable laws and reg-           As of this reporting period, however, we are not
     ulations. OPM also assessed the Agency’s efficiency         able to close the recommendations in the report and
                                                                 urge that GPO management, once again, provide a
     1
        “Human Capital: Federal workforce challenges in the      comprehensive plan for addressing implementation
     Twenty-first Century,” in Hannah S. Sistare, Myra Howze     of the recommendations. In addition, as previously
     Shiplett and Terry F. Buss, eds., Innovations in Human      noted, although the Agency has begun training man-
     Resource Management: Getting the Public’s Work Done in
     the 21st Century (New York: M.E. Sharpe, Inc., 2009), 13.   agement on “EEO and Discriminatory Harassment,”
     2
       Id. at 19.                                                comprehensive diversity training for managers and
     3
       GAO Report GAO-09-632T, http://www.gao.gov/new.           employees at GPO is still needed.
     items/d09632t.pdf.



10   Off i c e o f I n s p e c t o r G e n e r a l
      We are also concerned that HC operations are          the Agency’s IT resources is critical. Acquisition,
hampered by a broken culture. As a result, in part, of      implementation, and sustainment of engineer-
issues the OIG raised regarding processing new OIG          ing issues associated with the IT&S Business Unit,
employees since August of 2008, management tasked its       including security issues, pose new management
Organizational Architects (OAs) with conducting an HC       challenges.
operations review. Among other things, the focus was             Noteworthy challenges for IT&S include estab-
to assess HC operations and procedures for processing       lishing a top-level Enterprise Architecture and sup-
new employees as well as within-grade increases. OA         port for several significant initiatives, including FDsys,
found that more than 50 percent of personnel processed      the e-Passport system, digital publication authenti-
through HC at GPO in Fiscal Year (FY) 2009 experienced      cation using a Public Key Infrastructure (PKI), infor-
errors. The review noted a lack of ownership, respon-       mation system management, implementation of the
sibility, and accountability for those errors as signifi-   GPO’s Business Information System (GBIS) (an Oracle
cant problems. The review also noted a lack of means        solution), and implementation of electronic human
for measuring accuracy and performance incentives           resources systems.
focusing on speed rather than accuracy. According to              Legac y systems increasing ly in h ibit t he
the review, the culture in HC allows for “blaming, finger   Agency’s ability to respond to customer needs and
pointing and ultimately mistakes,” which has resulted       must be replaced. To create a plan that will help mit-
in “extremely” low HC employee morale.                      igate risks for aging legacy systems, IT&S initiated
      In response to the OA review, management is           an analysis of legacy applications and their impact
working closely with OPM to restructure HC oper-            on business operations. IT&S recently completed
ations. For HC to successfully transform to a high-         a 5-year strategy for improving the level of system
performing business unit, the restructuring must            support, and has begun executing the plan. The
not, however, be simply a re-shuffling of the chairs        strategy they developed should guide the Agency
but actually produce a change in the HC culture to          through implementation of new systems and retire-
achieve “results-oriented, customer-focused, and            ment of legacy systems. FDsys, human resource
collaborative” HC solutions.                                systems, and GBIS releases are now operational.
                                                            Additionally, in FY 2009, IT&S completed an agency-
2. Information Technology Management and Security.          wide rollout of an enhanced Time and Attendance
As GPO transforms to a highly efficient and secure          application (WebTA). The following areas are sig-
multimedia digital environment, management of               nificant IT issues confronting the Agency:




                                                            S e m i a n n u a l r e p o r t t o c o n g r e ss           11
     a.	Compliance with the Federal Information Security       preservation subsystem (accessible to GPO inter-
        Management Act                                         nal users only); and the access subsystem for pub-
     Because GPO provides services to executive branch         lic content access and dissemination. A multi-year,
     agencies that must comply with the Federal Information    multi-release integration effort will design, procure,
     Security Management Act (FISMA) of 2002, GPO chose        develop, integrate, and deploy select technologies
     to substantially comply with the principles of the Act.   and components of FDsys.
     Complying with FISMA presents additional chal-                  The OIG is responsible for the IV&V work associ-
     lenges for IT&S, including protecting sensitive Agency    ated with developing and implementing FDsys. We con-
     systems, information, and data. During FY 2007, the       tracted with American Systems to conduct program-
     OIG conducted a baseline assessment of compliance         matic and technical evaluations of the FDsys Program
     with FISMA to identify any gaps and deficiencies in       and determine whether system implementation com-
     GPO’s overall information security program, includ-       plies with the FDsys project plan and cost plan as well
     ing critical systems. We completed a full FISMA assess-   as meets GPO requirements. The IV&V effort also moni-
     ment in FY 2009. The scope included evaluating GPO        tors development and program management practices
     progress in complying with FISMA based on the 2007        and processes to anticipate potential issues.
     assessment. Our most recent assessment noted that               The FDsys Program has undergone substantial
     while GPO has made some progress in complying with        changes since its inception. During the fall of 2007, the
     FISMA, additional improvements are needed. Many of        schedule and scope for the first release was changed
     the weaknesses identified during the FY 2007 baseline     significantly and a final release with a reduced scope
     assessment still exist.                                   was planned for late 2008. In early 2008, GPO imple-
          Looking forward, the potential changes to            mented a reorganization of the program with respect
     FISMA resulting from draft legislation currently          to Government and contractor participation and
     before Congress present IT&S with areas to monitor        responsibilities and implemented a new design for
     and incorporate into GPO’s FISMA planning process.        FDsys. The GPO FDsys Program Management Office
     b.	Implementation of the Federal Digital System           (PMO) assumed from the contractor the role of Master
     FDsys will be a comprehensive information life-cycle      Integrator. The PMO also assumed responsibility for
     management system that will ingest, preserve, pro-        designing and managing system development. The
     vide access to, and deliver content from the three        original Master Integrator contractor and other con-
     branches of the Federal Government. The system            tractors were assigned system development roles
     is envisioned as a comprehensive, systematic, and         under the overall guidance of the PMO.
     dynamic means of preserving electronic content                  In January 2009, GPO deployed a public beta ver-
     free from dependence on specific hardware and/            sion of the FDsys access subsystem, which employed
     or software. FDsys has three major subsystems: the        8 of the 55 data collections in the GPO Access system.
     content management subsystem and the content              The content management and content preservation




12   Off i c e o f I n s p e c t o r G e n e r a l
subsystems, supporting the Internal Service Provider,      COOP effort can be completed. The COA concept is
Congressional Publishing Specialist, Preservation          scheduled to be operational August 2010. The most
Specialist, and Report user roles, were released in        recent completion date for a full COOP capability is
late March of 2009. Since deployment, the PMO has          December 2010.
updated and upgraded the beta system and corrected               A more troublesome concern for the FDsys
deficiencies identified during testing.                    Program is the quality of the deployed system. While
      During this reporting period, the PMO com-           the testing effort has improved and become more
pleted the deployment of several post-Release 1 pro-       rigorous, the test team continues to identify numer-
duction builds. Despite these deployments, however,        ous software problems prior to deployment of major
FDsys Release 1 is still not complete and close to 4       production builds. The problems, documented as
years have elapsed since inception of the Program          Problem Tracking Reports (PTRs), describe errors or
in August 2006. The beta system contains less than         deficiencies in system operation and failures to meet
half (only 25) of the GPO Access Collections. Both         expected performance. With each deployment the
GPO Access and FDsys must be operational to ensure         number of PTRs has grown, and hundreds of PTRs
that all GPO content is available to the public. The       remain open. The ongoing need to resolve and close
Continuity of Operations (COOP) capability, a criti-       the PTRs consumes program resources and reduces
cal step in the transition from GPO Access to FDsys        PMO ability to develop and deploy new functionality.
as the “system of record,” is not yet implemented.               This brief assessment does not mean to imply that
      In addition, as of Februar y 28, 2010, GPO           the Program lacks effort or has failed to produce a via-
expended $36.5 million (unaudited) to deploy Release       ble product. The FDsys beta system has received praise
1, substantially exceeding the original planned cost of    for its look, feel, and ease of use. The PMO has also dealt
$16 million. This expenditure has yet to produce a final   with external commitments and requests (for example,
version of Release 1, and a beta version of the release    availability of bulk data) that have altered the internal
contains considerably less functionality in terms of the   priorities and resulted in the delay of work on devel-
system requirements than originally planned.               opment of the capabilities envisioned for FDsys. The
      A complete IV&V assessment of the quality of         OIG believes that the primary challenges for the FDsys
the FDsys Program 6 months into FY 2010 remains            Program are in the areas of program management, sys-
difficult at this time, but several concerns should be     tem engineering leadership, and technical direction
highlighted. First, although the Program has met its       as well as an adequate test program for the FDsys sys-
initial goal of fielding a beta system, the PMO is still   tem. The goal of our on-going IV&V efforts is to report
having difficulty closing out Release 1. Recently, the     key risks and issues to the PMO and management and
PMO published an initial Release 1 Completion Plan,        provide value-added recommendations that will help
delineating high-level milestones required for the         mitigate those risks.
“sunsetting” of GPO Access and the establishment of        c.	Other Challenges
FDsys as the GPO system of record. Although the plan       On August 23, 2009, GPO’s Persistent Uniform
is a good start, if the PMO fails to effectively manage    Resource Locator (PURL)4 server failed, causing sig-
the plan in areas such as tracking costs, schedule, and    nificant downtime for Federal depository librar-
resources, the overall goal of completing Release 1 by     ies across the United States in disseminating U.S.
the end of FY 2010 may not be achieved.                    Government information. Surprisingly, no backup
      Another concern is the apparent change in the        plan existed, and IT&S could not provide the nec-
criteria the PMO previously identified as a prerequisite   essary software application support for the rebuild
for “sunsetting” GPO Access. This criteria included the    process. As a result, GPO ended up outsourcing the
availability of a full COOP capability. According to the
Release 1 Completion Plan, this capability will not be     4
                                                             PURLs are Web addresses that act as permanent
initially available. Instead, the PMO intends to create    identifiers for changing Web infrastructure. PURLs are
a Continuity of Access (COA) Instance until the entire     persistent because once established, a PURL does not
                                                           change although a Web page may change.



                                                           S e m i a n n u a l r e p o r t t o c o n g r e ss            13
     building of a “bridge of stability” for the current sys-
     tem. Ultimately, we believe that FDsys will address
     persistent identification of content requirements,
     but at present there is no timeline to complete this
     transition.
          As a result of the server failure, we initiated an
     inspection to determine what caused the server to fail,
     why no backup capability was available, and why IT&S
     could not support the rebuild process. The results of
     our inspection could identify lessons learned to help
     prevent similar incidents from occurring. We expect to
     issue a report during the next reporting period.

     3. Security and Intelligent Documents. As the
     Federal Government’s leading provider of secure
     credentials and identity documents, Security and
     Intelligent Documents (SID) is a business unit that
     management believes best exemplifies the Agency’s
     transformation toward high-technology production.
     During this reporting period, SID reported successful
     manufacturing for the Department of State of more
     than 5.5 million electronic passports (e-Passport).
     The Washington, D.C., facility produced more than
     3.7 million passports while the Secure Production
     Facility (SPF) located at a COOP site in Stennis,
     Mississippi, produced more than 1.8 million pass-             to implement necessary internal controls over e-Pass-
     ports. The FY 2010 production target volume for the           port supply chain security.
     Department of State is a total of 11 million passports.             SID continues to operate the Washington, D.C.-
           During this reporting period, the OIG issued a final    based Secure Credential Center (SCC), which supports
     audit report on the security of the e-Passport supply         the Department of Homeland Security’s Customs and
     chain. This report is the latest product resulting from the   Border Protection (DHS/CBP) Trusted Traveler Programs
     OIG’s continuing oversight of the e-Passport production       (TTP).5 SCC also produces, personalizes, and distributes
     process. As further noted in the OAI section, the audit       the Department of Health and Human Services Center
     identified that the e-Passport supply chain security pro-     for Medicare and Medicaid Service’s (CMS) Medicare
     cess was largely informal and GPO offices with overlap-       identification cards to citizens of Puerto Rico. As opposed
     ping responsibility should have been coordinating their       to blank e-Passport production, which does not entail the
     work efforts rather than working autonomously.                “personalization” of the credential with a citizen’s per-
           Such an informal and uncoordinated process              sonal information, the TTP and CMS programs entail the
     led to insufficient security audits of critical e-Passport    use of PII by GPO to produce identity cards.
     suppliers, lack of contractual control over subcontrac-             During this reporting period, the OIG began
     tors providing e-Passport components, lack of contrac-        an audit of GPO’s secure personalization system
     tor security plans or security-related requirements and       (SECAPS) information technology security controls.
     lack of required contract file documentation for some         SECAPS is the baseline for personalization operations
     suppliers. Management concurred with our recom-
                                                                   5
     mendations to strengthen the security of the e-Pass-             TTPs provide expedited travel for preapproved, low-risk
                                                                   travelers through dedicated lanes and kiosks by providing
     port supply chain. We will monitor management’s plan          them secure identification cards.



14   Off i c e o f I n s p e c t o r G e n e r a l
that support various GPO customer identity card pro-
grams, including TTP and CMS. The audit will deter-
mine whether a requisite level of information technol-
ogy security controls is being applied to help ensure
data integrity, data confidentiality, and system avail-
ability. Because SECAPS handles PII, the OIG is plac-
ing particular audit emphasis on security controls
over PII. The audit includes a security evaluation of
SECAPS physical controls, system interconnections
and the transmission of PII, operating systems and
database systems supporting SECAPS, and purging
of PII.
      Standards promote industry best practices for
occupational health and safety standards and pro-
grams in a production environment. SID reported
the continuation of 5S audits at both plant locations.
5S is a series of defined steps and audits intended to      to more comprehensively serve Federal Government
improve efficiencies in manufacturing process flows,        organizations in the area of secure credentials. SID is
equipment usage and placement, and environmental            also working to develop the capability to manufacture
housekeeping standards. According to SID, both loca-        secure blank card bodies through the procurement of
tions (the District of Columbia and Stennis) continued      card lamination and punch equipment and technolo-
to refine and formalize standard operating procedures       gies that will result in more secure and controlled card
used in the planned ISO 9000 audits and certification       production as well as lower costs and better service to
process.6 Additionally, SID is working to complete          GPO’s agency customers.
a library of standard operating procedures that will              GPO, in cooperation with the Department of State’s
underpin and lay the foundation for the OHSAS 18001         Bureau of Consular Affairs, plans to issue a Request for
certification at a future date.7                            Proposal during FY 2010 for procurement of e-Cov-
      SID reported that it also continues its work to       ers used in the manufacturing of U.S. Passports. The
complete the certification process for SCC to become a      proposed e-Covers will be compatible with existing
facility qualified to handle, personalize, and distribute   GPO manufacturing and Department of State pass-
Homeland Security Presidential Directive 12 (HSPD-          port personalization processes, and will be required
12) cards. SID expects certification sometime during        to meet various external applicable requirements and
the next reporting period. Completion will allow SCC        standards, including those of the International Civil
                                                            Aviation Organization (ICAO) and ISOs.
                                                                  Because of SID’s growing strategic importance
6
   ISO (International Organization for Standardization)
                                                            for the Agency’s transformation efforts and its sensi-
is the world’s largest developer and publisher of
International Standards. The ISO 9000 family of standards   tive work in areas of national security, the OIG will
represents an international consensus on good quality       closely monitor management’s efforts in developing
management practices. It consists of standards and          formal, internal security controls of these products
guidelines relating to quality management systems and
related supporting standards.                               and continue to emphasize oversight of production
7
   OHSAS 18001 is an Occupation Health and Safety           and transportation processes.
Assessment Series for health and safety management
systems. It is intended to help an organization control
                                                            4. Internal Controls. GPO management establishes and
occupational health and safety risks. It was developed
in response to widespread demand for a recognized           maintains a system of internal controls for effective
standard against which to be certified and assessed.        and efficient operations, reliable financial reporting,




                                                            S e m i a n n u a l r e p o r t t o c o n g r e ss         15
     and compliance with laws and regulations. Almost all
     OIG audits include assessments of a program, activity,
     or function’s control structure and the OIG has several
     ongoing audits that are assessing internal controls.
           Of concern, however, is that our audits continue
     to identify issues related to internal controls. For exam-
     ple, we issued during this reporting period a report of
     an audit that reviewed and evaluated internal controls
     associated with the security of GPO’s e-Passport sup-
     ply chain. As part of that evaluation, we determined
     whether GPO had formal documented policies, proce-
     dures, techniques, or mechanisms in place to imple-
     ment a security process for its e-Passport supply chain      5. Protection of Sensitive Information. GPO must
     and whether an organizational structure was in place         establish rules of conduct and appropriate admin-
     that clearly defined key areas of authority, responsi-       istrative, technical, and physical safeguards that
     bility, and appropriate lines of reporting for e-Pass-       will adequately identif y and protect sensitive
     port supply chain security. We identified that a control     information. Failure to do so could result in harm,
     deficiency existed because GPO did not have a for-           embarrassment, inconvenience, or unfairness to
     mal, Agency-wide process for ensuring security for the       individuals and GPO, including possible litiga-
     e-Passport supply chain as basic Federal Government          tion. Of particular importance is the need to safe-
     internal control standards require.                          guard against and respond to the breach of PII. This
           The annual financial statement audit also              includes PII contained in information systems as
     addresses internal control issues and provides man-          well as paper documents. In accordance with OMB
     agement with recommended corrective actions.                 Memoranda 06-15 and 07-16, executive branch
     Although management recognizes the need for                  agencies had to implement policies and procedures
     improving the internal control environment to suc-           to protect and respond to the breach of PII as far
     cessfully implement its strategic vision and planned         back as the middle of 2007.
     future initiatives, Agency action is important because             As noted in previous reporting periods, the OIG
     of implementation of Statement on Auditing Standards         advised GPO of its concerns regarding protection of sen-
     (SAS) No. 112, “Communicating Internal Control               sitive information, including PII. FISMA requires each
     Related Matters Identified in an Audit.” SAS No. 112         agency to establish rules of conduct for persons involved
     establishes standards and provides guidance on com-          with PII, establish safeguards for PII, and maintain
     municating matters related to an entity’s internal con-      accurate, relevant, timely and complete PII information.
     trol over financial reporting identified in a financial      As reported in OIG Report 07-09 – “GPO Compliance
     statement audit. The standard requires that the auditor      with the Federal Information Security Management
     communicate control deficiencies that are “significant       Act (FISMA),” dated September 27, 2007, and again in
     deficiencies” and “material weaknesses.”                     our FISMA Report 10-03 dated January 12, 2010, GPO’s
           As further discussed in the OAI section, during        IT&S Division is making progress in protecting PII con-
     the FY 2009 financial statement audit, KPMG iden-            tained in information systems. However, at the comple-
     tified two significant internal control deficiencies it      tion of our latest assessment, GPO had not designated
     did not consider material weaknesses. The signifi-           an official responsible for managing and monitoring the
     cant deficiencies identified by KPMG were related to         Agency’s privacy compliance efforts. As a result, privacy
     (1) financial reporting controls, and (2) information        requirements have not been adequately identified and
     technology (IT) general and application controls. An         communicated to other responsible officials.
     evaluation of internal controls will continue to be an             We are encouraged though that progress has
     area of emphasis on all OIG audits.                          occurred in this area during this reporting period.



16   Off i c e o f I n s p e c t o r G e n e r a l
We recognize that management concurred with our           goods and services, especially those necessary to
previous recommendations that GPO immediately             transform the Agency and provide services to its
identify any contracts and contractors handling           Federal customers, in an efficient, effective, account-
PII, review security requirements, request security       able, and environmentally conscious manner is essen-
plans, conduct on-site surveys and inspections, and       tial. With more than $675 million in acquisitions dur-
appoint a GPO Privacy Officer who will establish          ing FY 2009, we remain concerned that the Agency
and oversee a comprehensive sensitive information         has not devoted the resources necessary to conduct
protection program. Indeed, during this reporting         independent assessments of Acquisition Services
period, GPO issued two Directives addressing PII.         that clearly identify gaps in effective performance
The first one, Directive 110.15C, “U.S. Government        and implement a plan for resolving critical issues,
Printing Office Contract Review Board (CRB),” dated       as required for executive branch agencies under the
March 29, 2010, prescribes the functions, the com-        Services Acquisition Reform Act of 2003 and OMB
position, and the responsibilities of GPO’s CRB and       guidelines.
addresses PII issues related to print contract awards           Last year OMB provided guidelines to executive
involving PII. The CRB provides an objective and          branch agencies to conduct internal reviews of the
independent review of select proposed procure-            acquisition function required under OMB Circular No.
ment actions of Print Procurement or Acquisition          A-123. OMB used the GAO “Framework for Assessing
Services for compliance with applicable GPO and           the Acquisition Function at Federal Agencies” as the
Government laws, polices, and procedures. The             standard assessment approach.8 Although GPO is not
Directive specifically states that for awards involv-     required to follow OMB guidelines in that area, we
ing PII or other sensitive information, before the        believe that the Agency would benefit from performing
contract is awarded, contracting officers must pro-       that review process of Acquisition Services. We look
vide the CRB with “signed and dated confirmation          forward to the results of the independent assessment
from the GPO’s Federal agency customer that the           that the Public Printer announced in his November
proposed awardee meets all PII or sensitive infor-        30, 2009, letter to Congress.
mation handling requirements . . . [and] a copy of              We are also concerned about other specific
the security plan. . . .”                                 issues regarding agency contract administration, as
      Directive 825.41, “Protection of Personally         evidenced in part by our recent audit of the security
Identifiable Information,” dated March 30, 2010,          of the e-Passport supply chain. As our audit of the
establishes a framework for the protection of PII         e-Passport supply chain revealed, of the 10 signifi-
at GPO. Under the Directive, the Public Printer           cant e-Passport supplier contracts reviewed, 5 lacked
will appoint a person at the senior manager level         critical information that the Agency’s Materials
as Privacy Officer (PO) who will implement the            Management Acquisition Regulation (MMAR)
Directive. The first tasks the PO will undertake will     requires. Such contract file information is critical to
be review of PII held by all business units, reduce PII   our office so we can review and investigate Agency
to the minimum necessary, develop a schedule for          contracting actions and administration. Acquisition
periodic review of PII, establish a plan to eliminate     Services should comply with the MMAR by properly
the unnecessary collection and use of social secu-        documenting contract files.
rity numbers, and establish an incident response                In addition, we are concerned that a signifi-
plan to handle breaches of PII. We will monitor           cant number of e-Passport supplier contracts did
implementation of Directive 825.41 to ensure that         not contain security-related requirements or lan-
safeguards are in place, implemented, and followed.       guage that would have given the Agency the right to
                                                          review, authorize the subcontracting of, and inspect
6. Acquisitions and Print Procurement. As with other
Federal agencies across the Government, GPO faces         8
                                                             GAO Report GAO-05-218G, September 2005, http://
challenges in its acquisition functions. Acquiring        www.gao.gov/new.items/d05218g.pdf.



                                                          S e m i a n n u a l r e p o r t t o c o n g r e ss        17
     the operations of companies that provide critical         nesses, KPMG identified two significant deficiencies
     components for the e-Passport. Acquisition Services       it did not consider material weaknesses, including
     should work in coordination with the Office of            (1) financial reporting controls, and (2) information
     General Counsel and SID to ensure that all con-           technology (IT) general and application controls.9
     tracts related to the e-Passport, and other sensitive           With respect to financial reporting controls, KPMG
     identity products, include such language to ensure        identified specific deficiencies concerning the review
     proper security plans and oversight rights.               and reporting of general property, plant and equipment;
          Finally, as discussed below on the issue of          certain reconciliation controls; and controls over com-
     environmental stewardship, GPO’s Acquisition              pilation of statement of cash flows. Deficiencies with the
     Services should develop a goal of advance sus-            design and/or operations of GPO’s IT general and appli-
     tainable acquisition. Executive Order 13514, dated        cation controls were noted in security management,
     October 5, 2009, requires executive branch agen-          access controls, configuration management, and con-
     cies to ensure that 95 percent of applicable con-         tingency planning. Financial management and perfor-
     tracts meet sustainability requirements. We rec-          mance and the Agency’s ability to provide timely, accu-
     ommend that GPO set an equally ambitious goal as          rate, and useful financial information will continue to
     part of its sustainable procurement agenda.               be a management concern.

     7. Financial Management and Performance. Over the         8. Continuity of Operations. GPO’s ability to con-
     years, financial management and performance has           tinue its mission essential functions of congres-
     been identified by many agencies, including GPO, as       sional printing and publishing, production of the
     a significant management challenge. Federal agencies      Federal Register, and production of blank passport
     continue to face challenges providing timely, accurate,   books for the Department of State during a disrup-
     and useful financial information and managing for         tion in operations continues to be a significant area
     results. Better budget and performance integration has    of concern. The power loss incident in 2009, which
     become even more critical for results-oriented manage-    directly affected production of the Congressional
     ment and efficient allocation of scarce resources among   Record, brought the issue of COOP to the foreground
     competing needs. OIG auditors and the contractors they    and underscored the critical nature of the Agency’s
     oversee are vital in keeping the Federal Government’s     ability to continue essential functions during a dis-
     financial information and reporting transparent, valid,   ruption of operations. A public-facing server outage
     and useful to agency decision makers and other stake-     in 2009 also raised issues concerning capability of
     holders. GPO has completed migration of current busi-     GPO to maintain communications with external
     ness, operational, and financial systems, including       stakeholders and employees during a COOP event to
     associated work processes, to an integrated system of     include Web-based content as well as e-mail.
     Oracle enterprise software and applications known as           The Agency continues to take the necessary steps
     the Oracle E-Business Suite. The new system is intended   for enhancing its COOP posture, including planning
     to provide GPO with integrated and flexible tools that    and conducting exercises with scenarios that tested
     support business growth and customer technology           alternate production facilities and procedures for
     requirements for products and services.                   notifying essential personnel. Accomplishments
          The OIG continues to oversee the activities of
     KPMG, the IPA conducting the annual financial             9
                                                                  A significant deficiency is defined as a deficiency, or
     statement audit. KPMG expressed an unqualified            combination of deficiencies, in internal control that is less
                                                               severe than a material weakness, yet important enough
     opinion on GPO’s FY 2009 financial statements, stat-
                                                               to merit attention by those charged with governance.
     ing that the Agency’s financial statements were fairly    A material weakness is a deficiency, or combination
     presented, in all material respects, and in confor-       of deficiencies, in internal control, such that there is a
                                                               reasonable possibility that a material misstatement of
     mity with generally accepted accounting principles.
                                                               the entity’s financial statements will not be prevented, or
     Although GPO addressed previous material weak-            detected and corrected on a timely basis.



18   Off i c e o f I n s p e c t o r G e n e r a l
during the most recent reporting period included an       tinue these efforts to enhance business development
Executive Offices COOP exercise in February 2010.         and customer service and measure their level of suc-
This exercise was the first involving executive leader-   cess to ensure a culture of continuous improvement.
ship and some support units, and included relocation           Nevertheless, after almost six years, the Agency’s
to a non-GPO facility for strategy and decision making.   Strategic Vision, which was issued on December 4,
The primary goal of the exercise was to familiarize the   2004 and included a Business Plan from FY 2005
necessary people with the procedures and situation of     through 2009, is itself in need of review and updat-
working out of a non-GPO building to manage the first     ing. The Agency should review its transformational
phase of a COOP event. Although all of the exercise’s     efforts to date to measure its accomplishments, its
goals were demonstrated, areas needing improvement        shortcomings, and its renewed vision for the future.
were identified and recommendations were made to
further improve the Agency’s COOP posture.                10. Sustainable Environmental Stewardship. As the
                                                          largest industrial manufacturer in the District of
9. Strategic Vision and Customer Service. To achieve      Columbia, GPO has always faced challenges to
its objectives as a 21st Century information process-     become more environmentally sensitive. The Public
ing and dissemination operation, GPO management           Printer has made central to his administration “the
must maintain the appropriate focus, staffing, and        call to sustainable environmental stewardship” and
alignment with the Agency Strategic Vision. The cul-      to attempt to be “green” in virtually every step of
ture and focus of customer service efforts must reflect   the printing process. Previously, the Public Printer
a new way of thinking, and customers should come          outlined a plan that would help GPO become more
to GPO because they want—not because they must.           efficient and make better use of resources under
Transformation of the traditional GPO customer            its control. More recently, the Public Printer noted
relationship requires a continuing evolution toward       that a future based on environmental sustainabil-
state-of-the-art customer relations management.           ity is more than simply going “green,” but rather “it
      In line with its Strategic Vision, GPO previously   means expanding our digital operations and mak-
reorganized several business units to better serve its    ing changes in paper, inks, equipment configura-
various Government customers. This realignment            tions, and energy sources so that we can support
of business units was initiated to help streamline        our customers in Congress, Federal agencies, and
processes, strengthen customer relationships, and         the public in a more efficient and environmentally
develop new sales opportunities. GPO should con-          responsible way.”




                                                          S e m i a n n u a l r e p o r t t o c o n g r e ss        19
           We reported in our previous semiannual report     provide training on making purchases that are envi-
     that GPO was printing the Congressional Record on       ronmentally sound and comply with the spirit of the
     paper comprising 100 percent post-consumer waste.       order. These and other stewardship initiatives will
     GPO is also printing the Federal Register on 100 per-   require a top-to-bottom and bottom-to-top commit-
     cent post-consumer waste paper. Progress contin-        ment. Employee empowerment and training will be
     ues on other initiatives including, moving from Web     absolutely necessary for the Agency to achieve its
     offset presses to digital equipment, accelerating the   goals and sustain them.
     re-engineering of business processes, conducting             We noted in our previous report that GPO’s envi-
     energy audits, and installing a green roof.             ronmental executive recommended to the OIG issues
           We continue to encourage management and           to explore with the GPO legislative branch counter-
     Congress to renew their efforts to evaluate a new       parts. Those recommendations include the following:
     facility that would more appropriately meet Agency      •	 consolidating waste hauling contracts to obtain a
     needs and be more energy efficient. A more energy          more favorable rate for recycled goods as well as
     efficient and environmentally conscious facility           ensure that each agency can participate in recy-
     not only fits with the Agency’s environmental stew-        cling efforts.
     ardship initiative but also meets the environmen-
                                                             •	 consolidating standard goods purchasing, such as
     tal and economic objectives for Congress and the
                                                                cafeteria supplies, cleaning chemicals, and paper
     Administration.
                                                                (in all its forms), to reduce cost and ensure each
           We also encourage management to promote
                                                                agency is using the “greenest” products available.
     and incorporate green thinking into all business
     processes through performance metrics, reward           •	 sharing service contracts to achieve economies
     programs, and other means. For example, we                 of scale and uniformity throughout the legislative
     urge an integrated approach to green acquisition.          branch agencies.
     In October 2009, the President issued E.O. 13514,             The legislative branch OIGs have reviewed the
     which sets sustainability goals for Federal agen-       issues and are exploring crosscutting review oppor-
     cies and focuses on making improvements in their        tunities. We again encourage management to address
     environmental, energy, and economic performance.        these issues directly with officials in other legislative
     In particular, the Executive Order advances sus-        branch agencies.
     tainable acquisition by ensuring that 95 percent              We have included in our work plan a review of
     of new contract actions including task and deliv-       energy use at GPO to determine whether a compre-
     er y orders for products and services (with the         hensive plan exists for implementing energy-related
     exception of acquisition of weapon systems) are         projects, as part of an overall plan that helps reduce
     energy-efficient (such as Energy Star or Federal        emissions, energy consumption, and energy costs.
     Energy Management Program designated), water-           We look forward to working with Agency personnel
     efficient, bio-based, environmentally preferable        in achieving a long-term and sustainable environ-
     (for example, Electronic Product Environmental          mental stewardship program.
     Assessment Tool certified), non-ozone depleting,
     contain recycled content, or are non-toxic or less-
     toxic alternatives, where such products and ser-
     vices meet an agency’s performance requirements.
     Although not required to adhere to the Executive
     Order, we urge that management adopt its tenets
     and develop written polices for purchasing envi-
     ronmentally sustainable goods and services, moni-
     tor compliance annually and fix shortcomings, and




20   Off i c e o f I n s p e c t o r G e n e r a l
o f f i c e o f au d i t s
a n d inspections




A
         s the IG Act requires, OAI conducts independent and objec-
         tive performance and financial audits relating to GPO oper-
         ations and programs, and oversees the annual financial
statement audit conducted by an IPA firm under contract. OAI also
conducts short-term inspections and assessments of GPO activities
generally focusing on issues limited in scope and time. OIG audits are
performed in accordance with generally accepted government audit-
ing standards that the Comptroller General of the United States issues.
When requested, OAI provides accounting and auditing assistance for
both civil and criminal investigations. OAI refers to OI for investiga-
tive consideration any irregularities or suspicious conduct detected
during audits, inspections, or assessments.


A . Summary of Audit and
Inspection Activit y
During this reporting period, OAI issued six new audit and assessment
reports. Those 6 reports contained 45 recommendations for improving
GPO operations, including strengthening internal controls throughout
the Agency. OAI continued its work with management to close open
recommendations carried over from previous reporting periods. As of
March 31, 2010, a total of 52 recommendations from previous report-
ing periods remain open.


B. Financial Statement Audit
(Audit Report 10-02, Issued January 8, 2010)
Federal law requires that GPO obtain an independent annual audit
of its financial statements, which the OIG oversees. KPMG conducted
the FY 2009 audit under a multiyear contract for which OAI serves
as the Contracting Officer’s Technical Representative (COTR). The
oversight ensures that the audit complies with Government Audit
Standards. OAI also assisted with facilitating the external audi-
tor’s work as well as reviewing the work performed. In addition,




                 S e m i a n n u a l r e p o r t t o c o n g r e ss       21
                                                               and has either planned or initiated responsive cor-
                                                               rective action.


                                                               C. Audit and Inspection Reports

                                                               1. Assessment Report 10-01
                                                               (Issued December 2, 2009)

                                                               Federal Digital System (FDsys) Independent
                                                               Verification and Validation – Ninth Quarter
                                                               Report on Risk Management, Issues,
     OAI provided administrative support to the KPMG           and Traceability
     auditors and coordinated the audit with GPO man-          The GPO FDsys program is intended to modernize
     agement. OIG oversight of KPMG, as differentiated         the GPO information collection, processing, and
     from an audit in accordance with Government Audit         dissemination capabilities it performs for the three
     Standards, was not intended to enable us to express,      branches of the Federal Government. During this
     and accordingly we did not express, an opinion on         reporting period, the OIG continued to oversee the
     GPO’s financial statements, the effectiveness of          efforts of American Systems as it conducted IV&V for
     internal controls, or compliance with laws and reg-       the public release of FDsys. As part of its contract with
     ulations. However, our oversight, as limited to the       the OIG, American Systems is assessing the state of
     procedures outlined earlier, disclosed no instances       program management, technical and testing plans,
     in which KPMG did not comply, in all material             and other efforts related to the rollout of Release 1.
     respects, with Government Audit Standards.                The contract requires that American Systems issue
           KPMG issued an unqualified opinion on GPO’s         to the OIG a quarterly Risk Management, Issues, and
     FY 2009 financial statements, stating that the            Traceability Report, providing observations and rec-
     Agency’s financial statements were fairly presented,      ommendations on the program’s technical, schedule,
     in all material respects, and in conformity with gener-   and cost risks as well as requirements traceability
     ally accepted accounting principles. KPMG identified      of those risks and the effectiveness of the program
     two significant deficiencies, which it did not consider   management processes in controlling risk avoidance.
     to be material weaknesses. Those deficiencies were:            This ninth quarterly report, which was for the
     (1) financial reporting controls and (2) information      period July 1, 2009, through September 30, 2009, iden-
     technology (IT) general and application controls.         tifies a number of technical risks associated with
           With respect to financial reporting controls,       FDsys configuration management and risk man-
     KPMG identified specific deficiencies concerning          agement activities. The report contains 11 recom-
     the review and reporting of general property, plant       mendations designed to strengthen these activities.
     and equipment; certain reconciliation controls; and       Management generally concurred with the recom-
     controls over compilation of statement of cash flows.     mendations and has either taken or proposed respon-
     Deficiencies with the design and/or operations of         sive corrective actions.
     GPO’s IT general and application controls were noted
     in security management, access controls, configura-       2. Assessment Report 10-03
     tion management, and contingency planning.                (Issued January 12, 2010)
           KPMG did not disclose any instances of non-         GPO’s Compliance with the Federal Information
     compliance with certain provisions of laws, regula-       Security Management Act
     tions, and contracts or other matters required to be
                                                               FISMA requires that each executive branch agency
     reported under Government Audit Standards. KPMG
                                                               develop, document, and implement an agency-wide
     made recommendations for each condition and man-
                                                               program for providing security for the information
     agement concurred with those recommendations


22   Off i c e o f I n s p e c t o r G e n e r a l
and information systems that support the opera-
tions and assets of the agency, including those pro-
vided or managed by another agency, contractor, or
other source. Although a legislative branch agency,
GPO recognizes the need to be FISMA compliant
because the services it provides, including services
to executive branch agencies. In FY 2007, the OIG
contracted with a consulting firm to perform a base-
line assessment of GPO’s FISMA compliance and to
evaluate the design and effectiveness of the controls
over GPO’s information security program, policies,
and practices.
     We completed a full FISMA assessment in FY
2009. The assessment was performed using the
most recent applicable FISMA requirements and
guidelines published by the OMB and the National
Institute of Standards and Technology. Significant
emphasis was placed on evaluating the GPO systems
used for providing services to client agencies.
     The OIG issued a sensitive report concluding that
GPO made some progress in complying with FISMA,
but that additional improvements are needed. Many
of the weaknesses identified during the FY 2007 base-
line assessment still exist. The OIG made a total of 21
recommendations, which, if implemented, will help
further move GPO toward FISMA compliance.

3. Assessment Report 10-04
(Issued January 19, 2010)

GPO Network Vulnerability Management
Network vulnerability management is the process
of identifying and protecting systems and appli-
cations that are potentially vulnerable to attack
in an organization’s network segment. Identifying
vulnerabilities is a vital part of an information
security program. Vulnerabilities present mali-
cious users with an opportunity to gain unauthor-               GPO’s Passport Printing and Production System
ized access to a system. There are many ways to           (PPPS) is a set of common hardware and software
discover vulnerabilities. For example, automated          integrated with custom printing machinery for the
scanning tools are typically used to assess systems       purpose of printing, stitching, and binding compo-
and applications for known vulnerabilities. In addi-      nents of the U.S. passport. Public-facing servers are
tion, patch management tools can identify systems         Web servers accessible to any computer connected to
that haven’t been patched and therefore may pose          the Internet. Access is commonly achieved through
vulnerabilities. Organizations often use a combina-       a client program known as a Web browser. Web serv-
tion of those tools as part of an overall vulnerability   ers allow people to submit and query information
management program.                                       in a common graphic user interface. Public-facing



                                                          S e m i a n n u a l r e p o r t t o c o n g r e ss      23
     servers at GPO include GPO Access and the Federal        that will be defined by stakeholder inputs and PMO
     Depository Library Program Desktop.                      requirements. These two recommendations were
           An OIG assessment of the GPO network vulner-       no longer considered applicable as a result of the
     ability management program focused specifically          change in development approach because the PMO
     on GPO’s passport production system environment          does not intend to define a final system and comple-
     and public-facing servers. The overall objective         tion date. Of the remaining four recommendations,
     of the assessment was to determine whether GPO           three were unresolved because of inadequate pro-
     maintains a robust and effective vulnerability man-      posed actions by management. The unresolved rec-
     agement program that can identify and circumvent         ommendations will be followed up on during the
     common internal and external network threats in          next reporting period.
     those environments. To accomplish our objectives,
     we observed and evaluated GPO’s network scanning         5. Audit Report 10-06
                                                              (Issued March 31, 2010)
     policies and process, analyzed the implementation
     of production firewalls and routers, reviewed the        Security of GPO’s e-Passport Supply Chain
     effectiveness of software configuration and patch        GPO is the sole source for producing U.S. passports
     management processes, and followed up on out-            for the U.S. Department of State. In FY 2007, GPO
     standing recommendations from previous network           printed its last legacy passport and began producing
     vulnerability assessments conducted by the OIG.          only e‑Passports to respond to Department of State
           The OIG issued a sensitive report detailing that   requirements that passports be compliant with the
     the Agency implemented a robust and effective vul-       International Civil Aviation Organization’s (ICAO)
     nerability management program that does iden-            standards for international passports. ICAO decided
     tify and circumvent common internal and external         in favor of using contactless chip technology in pass-
     network threats related to both the PPPS and pub-        ports that could be inserted into the passport covers
     lic-facing servers. We also concluded that since our     to enable the storing of biometric and other informa-
     last assessment the program has been significantly       tion about the passport holder. In FY 2008, the Agency
     strengthened.                                            produced 23.6 million e-Passports.
     4. Assessment Report 10-05                                    The e‑Passport book GPO produces contains
     (Issued March 24, 2010)                                  more than 60 commercially available and uniquely
                                                              assembled materials. Those materials include
     Federal Digital System (FDsys) Independent               items such as cover stock, security paper, security
     Verification and Validation (IV&V) –                     inks, security threads, and security functions, both
     Tenth Quarter Report on Risk Management,                 covert and overt. Suppliers of those materials are
     Issues, and Traceability                                 located throughout the United States and in several
     The tenth quarterly report identified a number of        foreign countries. SID selects suppliers and materi-
     technical risks associated with FDsys development        als in collaboration with the Department of State.
     practices, system engineering, COOP, existing PTRs,      The Department of State also collaborates with SID
     and the FDsys test program. American Systems iden-       to perform security assessments of both the sup-
     tified schedule and cost risks associated with these     pliers of computer chips for the e‑Passport as well
     technical risks. The report contains six recommen-       as for the subcontractor responsible for inserting
     dations designed to mitigate risks and strengthen        the chips into the passport covers. SID is solely
     overall management of the FDsys program. Two of          responsible for vetting and performing security
     the report’s recommendations were subsequently           assessments of the remaining companies that sup-
     closed as a result of the FDsys program’s decision       ply e-Passport components.
     to transition to an open-ended development effort             The OIG conducted an audit that assessed
     with objectives (for example, new functionality)         the adequacy of GPO’s security over its e‑Passport




24   Off i c e o f I n s p e c t o r G e n e r a l
components and supply chain. The audit identified
that the e-Passport supply chain security process
was largely informal and that different GPO offices
with overlapping e-Passport security responsibili-
ties, such as SID, Acquisitions, Operations Support,
Plant Operations, and Security Services, were work-
ing autonomously and had not coordinated their
efforts. GPO should ensure continued security of
the e-Passport supply chain by establishing a for-
mal security oversight process.
      In particular, because of this informal supply
chain security process, the audit identified the fol-
lowing for the 16 suppliers of either significant com-
ponents or operations in the e-Passport supply chain:
(1) GPO had a total of 16 security assessment reports on
only 11 of the 16 suppliers, (2) GPO did not have a direct
contractual relationship with 6 of the 16 suppliers, (3)
of the 10 e‑Passport supplier contracts reviewed, 6
contracts did not contain security plans or security-        1. Assessment Report 06-02
related requirements, including contracts with a high-       (Issued March 28, 2006)
risk supplier and several overseas suppliers, and (4)
                                                             GPO Network Vulnerability Assessment
GPO contract files lacked required documentation for
5 of the 10 e-Passport supplier contracts reviewed and       F i n di ng
did not contain evidence that GPO properly vetted the        Although GPO has many enterprise network controls in
suppliers to ensure that they could meet GPO require-        place, improvements that will strengthen the network
ments in the most secure and economical manner.              security posture are needed. During internal testing, we
The audit also identified that GPO could strengthen          noted several vulnerabilities requiring strengthening of
the security process for storing some finished blank         controls. However, no critical vulnerabilities were iden-
e-Passports and supplies, including the passport book        tified during external testing. Although unclassified,
covers containing the inlayed computer chips.                we consider the results of the assessment sensitive and,
      Recommendations were made to GPO manage-               therefore, limited discussion of its findings.
ment to help further improve the security of the e-Pass-     R e c om m e n dat ion
port supply chain. GPO management concurred with             The OIG made four recommendations that should
each of the recommendations and has either already           strengthen internal controls associated with the
implemented or planned responsive corrective actions.        GPO enterprise network. Those recommendations
                                                             should reduce the risk of compromise to GPO data
D. Status of Open                                            and systems.
Recommendations                                              M a n ag e m e n t C om m e n t s

Management officials made progress in implement-             Management concurred with each recommendation
ing and closing many of the recommendations iden-            and initiated corrective action.
tified during previous semiannual reporting periods.         OIG C om m e n t s
For the 52 recommendations still open, a summary of          Two recommendations made in this report remain
the findings and recommendations, along with the             open. The OIG reviewed the status of these rec-
status of actions for implementing the recommenda-           ommendations as part of the most recent Network
tion and OIG comments, follows.                              Vulnerability Assessment completed in January 2010.




                                                             S e m i a n n u a l r e p o r t t o c o n g r e ss          25
     The assessment identified that implementation of          R e c om m e n dat ion
     corrective actions is still ongoing.                      The report contains 11 recommendations that if
                                                               implemented will help move GPO toward FISMA
     2. Assessment Report 07-09                                compliance.
     (Issued September 27, 2007)
                                                               M a n ag e m e n t C om m e n t s
     Report on GPO’s Compliance with the Federal               Management concurred with each recommendation
     Information Security Management Act (FISMA)               and proposed corrective actions.

     F i n di ng                                               OIG C om m e n t s
     FISMA requires that each executive branch agency          Management continues to work on implementing
     develop, document, and implement an agency-wide           corrective actions for the seven remaining open
     program for providing information security for the        recommendations.
     information and information systems that support
                                                               3. Assessment Report 08-06
     operations and assets of the agency, including those
                                                               (Issued March 31, 2008)
     provided or managed by another agency, contractor,
     or other source. Although a legislative branch agency,    Operating System Security for GPO’s Passport
     GPO recognizes the need to be FISMA compliant             Printing and Production System
     because of the services it provides, including services
                                                               F i n di ng
     to executive branch agencies. The OIG issued a sensi-
                                                               The PPPS includes various computer applications
     tive report concluding that although the Agency has
                                                               and operating systems that support production of
     taken steps to comply with FISMA, additional prog-
                                                               passports. The Agency’s Plant Operations Division
     ress is needed to fully comply.
                                                               administers PPPS computer applications while its
                                                               Chief Information Officer (CIO) is responsible for
                                                               administering PPPS operating systems. If those oper-
                                                               ating systems are not configured securely, critical
                                                               computer applications such as databases and custom
                                                               applications are vulnerable to compromise. The risk
                                                               associated with compromise to the operating sys-
                                                               tems hosting such critical applications could result
                                                               in services being disrupted, sensitive information
                                                               being divulged, or even subject to forgery. The OIG
                                                               assessed the security configuration for selected oper-
                                                               ating systems that support production of passports
                                                               to determine whether GPO enforces an appropriate
                                                               level of security.
                                                               R e c om m e n dat ion
                                                               The OIG issued a sensitive report containing
                                                               eight recommendations designed not only to help
                                                               strengthen security of the PPPS but also reduce the
                                                               risk of system compromise.
                                                               M a n ag e m e n t C om m e n t s
                                                               Management generally concurred with each rec-
                                                               ommendation and proposed responsive corrective
                                                               actions.
                                                               OIG C om m e n t s
                                                               One recommendation remains open.


26   Off i c e o f I n s p e c t o r G e n e r a l
                                                          M a n ag e m e n t C om m e n t s
                                                          Management concurred with each recommendation
                                                          and stated that implementation would require the
                                                          Public Printer’s review and approval.
                                                          OIG C om m e n t s
                                                          Two recommendations remain open. Management
                                                          continues with implementation of the remaining
                                                          essential elements of MD-715 and the leading diver-
                                                          sity management practices GAO identified.

                                                          5. Assessment Report 08-12
                                                          (Issued September 30, 2008)

                                                          Assessment of GPO’s Transition Planning for
                                                          Internet Protocol Version 6 (IPv6)

                                                          F i n di ng
4. Audit Report 08-10
                                                          The OIG assessed Agency planning for transition
(Issued September 11, 2008)
                                                          from Internet Protocol version 4 (IPv4) to version 6
Diversity Management Programs at GPO                      (IPv6). Internet routing protocols are used to exchange
                                                          information across the Internet. Protocols are stan-
F i n di ng
                                                          dards that define how computer data are formatted
The OIG audited diversity management programs
                                                          and received by other computers. IPv6 is a developing
at GPO in response to a request from the Chairman
                                                          Internet protocol that provides benefits such as more
of the Subcommittee on Federal Workforce, Postal
                                                          Internet addresses, higher qualities of service, and
Service, and the District of Columbia, of the House
                                                          better authentication, data integrity, and data confi-
of Representatives’ Committee on Oversight and
                                                          dentiality. The OIG assessment identified that GPO
Government Reform. The audit identified that
                                                          plans to transition to IPv6 as part of a broad acquisition
although not mandated to comply with the guide-
                                                          plan that will update its IT infrastructure. The Agency
lines and directives of the Equal Employment
                                                          has not finalized target dates for the updates. The OIG
Opportunit y Commission (EEOC) concerning
                                                          believes that the planned transition is an effective
model affirmative action programs, before the
                                                          long-term approach. In the short term, however, GPO
audit was conducted senior officials at GPO began
                                                          should consider implementing the minimum IPv6
adopting some elements of both EEOC Management
                                                          requirement, which should ensure that resources such
Directive-715 (MD-715) and the leading diversity
                                                          as FDsys are capable of ingesting information from
management practices GAO identified. The audit
                                                          IPv6 sources.
also showed that opportunities exist for GPO to
develop a more diverse population of qualified            R e c om m e n dat ion

women and minorities in top leadership positions.         The OIG made two recommendations to management
                                                          that would enhance planning for the IPv6 transition.
R e c om m e n dat ion
The OIG made two recommendations in the report:           M a n ag e m e n t C om m e n t s

(1) incorporate the remaining essential elements of       Management concurred with each recommendation
MD-715, and (2) implement the nine leading prac-          and has either taken or planned to take responsive
tices for diversity management GAO identified. Such       corrective actions.
modifications should help the Agency manage its           OIG C om m e n t s
workforce, create an environment that helps dimin-        One recommendation remains open. The recom-
ish barriers for protected groups, and help attract and   mendation remains open pending completion of
retain capable employees from diverse backgrounds.        GPO’s ongoing infrastructure refresh.


                                                          S e m i a n n u a l r e p o r t t o c o n g r e ss           27
     6. Assessment Report 09-01                               effectiveness of the program management process in
     (Issued November 4, 2008)                                controlling risk. During the period this report covers,
                                                              GPO launched a public beta version of FDsys contain-
     Federal Digital System (FDsys) Independent
                                                              ing a limited number of collections. This fourth quar-
     Verification and Validation (IV&V) - Fourth
                                                              terly report provides an overview of the key risks and
     Quarter Report on Risk Management, Issues,
                                                              issues identified by the FDsys IV&V team from April
     and Traceability
                                                              through June 2008, including security requirements
     F i n di ng                                              and risk management.
     The OIG contracted with American Systems, a com-         R e c om m e n dat ion
     pany with significant experience in the realm of IV&V    The OIG made five recommendations to manage-
     for Federal civilian and Defense agencies, to conduct    ment intended to further strengthen management
     IV&V for the first public release of FDsys. As part of   of the FDsys program.
     its contract, the contractor is assessing the state of
                                                              M a n ag e m e n t C om m e n t s
     program management, technical and testing plans,
                                                              Management concurred with each recommendation
     and other efforts related to this public release. The
                                                              and proposed responsive corrective actions.
     contractor is required to issue to the OIG a quarterly
     Risk Management, Issues, and Traceability Report         OIG C om m e n t s
     providing observations and recommendations on the        Three recommendations remain open. Management
     program’s technical, schedule and cost risks, as well    continues to work on implementing corrective actions
     as requirements traceability of those risks and the      for these three remaining open recommendations.




28   Off i c e o f I n s p e c t o r G e n e r a l
7. Audit Report 09-02                                        8. Assessment Report 09-03
(Issued December 22, 2008)                                   (Issued December 24, 2008)

Audit of GPO’s Passport Printing Costs                       Federal Digital System (FDsys) Independent
                                                             Verification and Validation (IV&V) –
F i n di ng
                                                             Fifth Quarter Report on Risk Management,
GPO is the sole source for producing, storing, and
                                                             Issues, and Traceability
delivering blank U.S. passport books (passports) for
the Department of State. During the first 8 months of        F i n di ng
FY 2008, GPO produced 18.6 million passports and             This fifth quarterly report provides an overview of
realized revenue from passport sales of more than            the key risks and issues identified by the FDsys IV&V
$275 million, including $71.5 million in net income.         team from July through September 2008, including
The OIG identified two specific areas where GPO              those related to the FDsys detail design, and system
can improve the accountability and transparency              integration testing as well as technical, schedule, and
of its passport costing process to better prepare the        cost risks the program faces.
Agency for any future audits or reviews by outside           R e c om m e n dat ion
entities and promote good customer relations with            The OIG made 10 recommendations to management
the Department of State. First, through the May 2008         intended to further strengthen management of the
audit time period, we found that GPO generated more          FDsys program.
than $43 million in excess cash from passport sales to
                                                             M a n ag e m e n t C om m e n t s
the Department of State beyond what was necessary
                                                             Management concurred with six of the recommen-
to recover costs and provide for mutually agreed upon
                                                             dations, partially concurred with one, and noncon-
future capital expansion. That condition occurred
                                                             curred with three. Management proposed responsive
because GPO did not revise its original passport pric-
                                                             corrective actions to six of the recommendations.
ing structure and did not reach final agreement with
                                                             While we disagreed with management’s position on
the Department of State on a capital investment plan
                                                             the remaining four recommendations, we accepted
to earmark the excess cash. We also found that GPO,
                                                             management’s proposed alternative corrective
at its discretion, changed its indirect overhead cost
                                                             actions.
allocation methodology for passport costs without
documenting the justification and analysis for the           OIG C om m e n t s

change. As a result, the Agency increased the amount         Four recommendations remain open. Management
of indirect overhead allocated to passport costs from        continues to take responsive actions to implement
5.65 percent, or $4 million, in FY 2007, to 52 percent,      the four recommendations.
or $40 million, through May 2008.
                                                             9. Assessment Report 09-04
R e c om m e n dat ion                                       (Issued December 24, 2008)
The OIG made five recommendations to manage-
                                                             Federal Digital System (FDsys) Independent
ment to help GPO improve the accountability and
                                                             Verification and Validation (IV&V) – Security
transparency of its passport costing process.
                                                             Analysis Report
M a n ag e m e n t C om m e n t s
Management concurred with each recommendation                F i n di ng
and proposed responsive corrective actions                   This report provides an overview of key risks and
                                                             issues identified by the FDsys IV&V team as a result
OIG C om m e n t s
                                                             of their review of the revised FDsys system security
One recommendation remains open. Management is in
                                                             plan. The IV&V team concluded that the revised
the process of revising indirect cost rates. We anticipate
                                                             system security plan was a greatly improved docu-
closure of this recommendation upon implementation
                                                             ment reflecting a positive effort to include relevant
of the revised rates.




                                                             S e m i a n n u a l r e p o r t t o c o n g r e ss        29
     security controls. However, the IV&V team con-           11. Assessment Report 09-12
     cluded that the revised systems security plan did        (Issued September 30, 2009)
     not adequately detail the security controls in place,
                                                              Federal Digital System (FDsys) Independent
     or those planned to be in place for the protection
                                                              Verification and Validation (IV&V) – Seventh
     of confidentiality, integrity, and availability of the
                                                              Quarter Report on Risk Management, Issues,
     systems data and associated resources.
                                                              and Traceability
     R e c om m e n dat ion
     The OIG made five recommendations intended to            F i n di ng

     strengthen FDsys system security planning and            This seventh quarterly report, for the period January
     implementation.                                          1, 2009, through May 8, 2009, identifies critical tech-
                                                              nical, schedule, and cost risks for the FDsys Program.
     M a n ag e m e n t C om m e n t s
                                                              The report provides a high-level overview of the key
     Management concurred with each recommendation
                                                              risks and issues that IV&V identified during the
     and proposed responsive corrective actions.
                                                              reporting period. The report also discusses IV&V
     OIG C om m e n t s                                       assessments covering FDsys security and the state
     Three recommendations remain open. Management            of program activities required for deployment per-
     continues to take responsive actions to implement        formed over the same time period.
     the three recommendations.
                                                              R e c om m e n dat ion
     10. Assessment Report 09-07                              The OIG made 25 recommendations designed to
     (Issued March 20, 2009)                                  strengthen FDsys program management, particu-
                                                              larly for future FDsys releases.
     Federal Digital System (FDsys) Independent
                                                              M a n ag e m e n t C om m e n t s
     Verification and Validation (IV&V) –
                                                              Management generally concurred with each recom-
     Sixth Quarter Report on Risk Management,
                                                              mendation with the exception of one and proposed
     Issues, and Traceability
                                                              responsive corrective actions for each.
     F i n di ng
                                                              OIG C om m e n t s
     This sixth quarterly report provides an overview of
                                                              A total of 23 recommendations remain open. The OIG
     the key risks and issues identified by the FDsys IV&V
                                                              and IV&V team continue to monitor the status of their
     team from October 2008 through January 9, 2009,
                                                              implementation.
     including security and the state of program activities
     required for deployment as well as technical, sched-     12. Audit Report 09-13
     ule, and cost risks.                                     (Issued September 30, 2009)
     R e c om m e n dat ion                                   Accounts Payable Service Billings
     The OIG made four recommendations intended to fur-
     ther strengthen management of the FDsys program.         F i n di ng
                                                              The OIG conducted an audit that evaluated GPO’s
     M a n ag e m e n t C om m e n t s
                                                              processes and procedures for invoice payment. The
     Management concurred with each recommendation
                                                              audit found that controls over accounts payable,
     and proposed responsive corrective actions.
                                                              including the processes and procedures for track-
     OIG C om m e n t s                                       ing vendor invoices from receipt through payment,
     Three recommendations remain open. Management            can be further strengthened and more consistently
     continues to take responsive actions to implement        followed. In addition, complete audit trails support-
     the three recommendations.                               ing transactions in the Agency’s accounts payable




30   Off i c e o f I n s p e c t o r G e n e r a l
Table of Open Recommendations
                                                                 Number of Open                  Number of
   Audit
                                                                Recommendations               Months Open


   06-02 GPO Network Vulnerability Assessment                                     2                        48



   07-09 GPO’s Compliance with the Federal Information
                                                                                  7                        30
   Security Management Act


   08-06 Operating System Security for GPO’s Passport
                                                                                  1                        24
   Printing and Production System



   08-10 Diversity Management Programs at GPO                                     2                        18



   08-12 Assessment of GPO’s Transition Planning for
                                                                                  1                        18
   Internet Protocol Version 6 (IPv6)


   09-01 Federal Digital System (FDsys) Independent
   Verification and Validation (IV&V) - Fourth Quarter Report                     3                        16
   on Risk Management, Issues, and Traceability


   09-02 GPO’s Passport Printing Costs                                            1                        15



   09-03 FDsys IV&V – Fifth Quarter Report on Risk Man-
                                                                                  4                        15
   agement, Issues, and Traceability



   09-04 FDsys IV&V – Security Analysis Report                                    3                        15



   09-07 FDsys IV&V – Sixth Quarter Report on Risk Man-
                                                                                  3                        15
   agement, Issues, and Traceability


   09-12 Federal Digital System (FDsys) Independent Veri-
   fication and Validation (IV&V) – Seventh Quarter Report                       23                         6
   on Risk Management, Issues, and Traceability


   09-13 Accounts Payable Service Billings                                        1                         6




   09-14 GPO Workers’ Compensation Program                                        1                         6




   Total                                                                         52




                                                                S e m i a n n u a l r e p o r t t o c o n g r e ss   31
     systems did not always exist. Specific weaknesses        amount of billings from the Department of Labor for
     identified during transaction testing included           the cost of workers’ compensation benefits paid on
     missing end-user approvals, missing support for          GPO’s behalf decreased to less than $6 million dur-
     Contracting Officer payment authorization, no evi-       ing FY 2007. In addition, the total number of GPO
     dence of invoice examination and certification, and      workers’ compensation claimants decreased from
     hard copy invoice data that could not be reconciled      193 in 2002 to 136 in 2008. The audit identified several
     to the accounts payable system. As a result, there       areas where procedural and policy improvements
     was no assurance that management controls were           could be made to further enhance and strengthen
     operating effectively, which could have resulted in      the Workers’ Compensation Program.
     a potential misstatement of monthly and annual           R e c om m e n dat ion
     financial information.                                   The OIG made two recommendations to manage-
     R e c om m e n dat ion                                   ment designed to ensure that the program continues
     The OIG made two recommendations to GPO man-             to be operated in an efficient and effective manner.
     agement to help improve controls over accounts           M a n ag e m e n t C om m e n t s
     payable service billings, and specifically, GPO’s pro-   Management generally concurred with the recom-
     cesses and procedures for invoice payment.               mendations and agreed to take responsive corrective
     M a n ag e m e n t C om m e n t s                        actions or alternative actions to address the issues
     GPO Management concurred with each recommen-             identified.
     dation and proposed responsive corrective actions.       OIG C om m e n t s
     OIG C om m e n t s                                       One recommendation remains open. The rec-
     One recommendation remains open. Management is           ommendation should be closed during the next
     in the process of completing standard operating proce-   reporting period.
     dures for receiving, processing, and disbursing vendor
     invoices for payment. The recommendation should be
     completed and closed during the next reporting period.

     13. Audit Report 09-14
     (Issued September 30, 2009)

     GPO Workers’ Compensation Program

     F i n di ng
     The OIG completed an audit of GPO’s Workers’
     Compensation Program to determine whether GPO’s
     program was complying with appropriate Federal
     guidelines, regulations, and directives related to
     worker’s compensation, and GPO employee claims
     for worker’s compensation are supported by required
     documentation. The audit identified that GPO’s OWC
     should be commended for improvements in both
     the organization and management of this program.
     Since a previous OIG audit in 2002, controls over the
     GPO Workers’ Compensation Program have been
     strengthened and the program has undergone sig-
     nificant changes. The audit found that the overall




32   Off i c e o f I n s p e c t o r G e n e r a l
office of
i n v e s t i g at i o n s




O
           I conducts and coordinates investigative activity related
           to fraud, waste, and abuse in GPO programs and opera-
           tions. While concentrating our efforts and resources on
major fraud investigations, the activities investigated can include
possible wrongdoing by GPO contractors, employees, program
participants, and others who commit crimes against GPO. Special
Agents in OI are Federal Criminal Investigators (general sched-
ule job series 1811) and are designated as Special Police Officers.
Investigations that uncover violations of Federal law or GPO rules
or regulations may result in administrative sanctions, civil action,
and/or criminal prosecution. Prosecutions may result in court-
imposed prison terms, probation, fines, or restitution. OI may also
issue Management Implication Reports (MIRs), which identify
issues uncovered during an investigation it believes warrant man-
agement’s prompt attention.
     OI is responsible for investigations at all GPO locations, including
the 15 GPO Regional Printing Procurement Offices (RPPOs) nation-
wide. OI also maintains a continuing liaison with the GPO Security
Services and Uniform Police Branch, to coordinate efforts impacting
these law enforcement programs. Liaison is also maintained with the
Department of Justice, the National Procurement Fraud Task Force,
and other investigative agencies and organizations.


A . Summary of Inve stigative Activit y
At the end of last reporting period, 24 complaints were open. OI opened
26 new complaint files this period, 11 complaints were converted to
full investigations, and 8 were closed after preliminary review with no
action. Additionally, eight complaints were referred to GPO manage-
ment and one to another agency. At the end of the reporting period,
22 complaints were open.
      At the end of the last reporting period, 38 investigations were
open. During this reporting period, 15 investigations were closed,
7 of which resulted in referrals to GPO management for potential




                 S e m i a n n u a l r e p o r t t o c o n g r e ss         33
     administrative action. Ongoing at the end of this          violations, gambling, and travel voucher fraud. OI
     reporting period are 33 investigations.                    has seven open investigations, and five preliminary
           During this reporting period, we made seven          complaints, involving alleged employee misconduct.
     presentations to the Department of Justice for poten-
     tial criminal prosecutions. Each of those presenta-        Other Investigations
     tions resulted in declinations, and those cases will       OI conducts other types of investigations that do not
     now be pursued civilly and/or administratively. No         fall into one of the categories above. Examples of such
     formal presentations were made for civil purposes          investigations include theft of Government property,
     during this reporting period.                              illegal hacking, or requests for investigations by other
           Multiple investigations are being conducted in       legislative agencies. OI has two open investigative
     coordination with the Department of Justice, includ-       matters involving these types of allegations.
     ing its Antitrust Division. Twelve IG subpoenas were
     issued during this period. Documents requested
     included financial records, bid preparations, and
     agreements among contractors and/or affiliated
     companies.


     B. T ype s of Ca se s
     Procurement Fraud
     OI seeks to uncover any wrongdoing by GPO contrac-
     tors or employees during administration of GPO con-
     tracts. Violations can include false statements, false
     claims, kickbacks, product substitution, collusive bid-
     ding, bribery, and financial conflicts of interest. In
     FY 2009, GPO procured over $675 million in goods
     and services. With such vulnerability in mind, OI has
     focused much investigative development to the area
     of procurement fraud. The inventory of procurement
     fraud complaints/investigations has increased to 23
     open procurement fraud investigations today, or 64
     percent of our active caseload. Including allegations in
     complaint status, OI has 31 open procurement matters.

     Workers’ Compensation Fraud
     OI investigates GPO employees who allegedly sub-
     mit false claims or make false statements to receive
     workers’ compensation benefits. We are working on
     five investigative matters (complaints and investiga-
     tions) involving possible fraudulent claims for work-
     ers’ compensation.

     Employee Misconduct
     OI investigates allegations involving GPO employee
     misconduct. Allegations generally include false
     statements, theft of Government property or funds,
     assaults, misuse of Government computers, drug


34   Off i c e o f I n s p e c t o r G e n e r a l
C. Summary of Inve stigative
Accomplishments
Criminal and Civil Cases
•	An OI investigation found evidence of a GPO print-
  ing contractor who failed to comply with critical
  contract specifications throughout the perfor-
  mance period. Under GPO contract terms, Pub-
  lication 310.2, Clause 24(b), submission of any
  invoice for work completed under a GPO contract
  is a certification that the work was completed in
  accordance with contract terms. The contractor
  submitted at least 10 invoices to GPO. GPO sus-
  pended and proposed debarment of the company
  and the company’s officers from doing business               over billed GPO approximately $499,000. Settlement
  with GPO as a contractor, subcontractor, or con-             discussions continue.
  tractor’s representative. We previously reported
  that this matter was accepted for action by the
                                                             Internal Administrative Cases
  Department of Justice and a Civil Demand Letter
  was issued to the contractor. Negotiations toward          •	OI investigated allegations that a GPO employee
  civil settlement continue.                                   used or attempted to use her position for personal
                                                               financial gain and to benefit close friends. This
•	OI is conducting an investigation into allegations of
                                                               joint investigation with the Department of Justice
  false statements, false claims, forgery, and/or bid col-
                                                               Public Integrity Section included numerous inter-
  lusion by GPO print vendors. OI has the assistance of
                                                               views, records reviews, and analysis by an inde-
  the Department of Justice Antitrust Division, which
                                                               pendent subject matter expert. The Department
  is evaluating the case for possible criminal and/or
                                                               of Justice declined prosecution and the investiga-
  civil action.
                                                               tive results were referred to management. Man-
•	OI continues an investigation of allegations relat-          agement proposed terminating the employee.
  ing to false statements and/or false claims to               Further details will be reported when final action
  GPO. OI is coordinating this investigation with              takes place.
  the Department of Justice Antitrust Division. The
                                                             •	OI investigated disposition of 18 laptop/portable
  Department of Justice continues to evaluate this
                                                               computers identified as missing from an IT&S
  case for possible criminal and/or civil action.
                                                               storage area at the GPO headquarters building.
•	Investigation of a printing contractor determined            OI reported to management that as a result of the
  GPO paid more than $175,000 after the company                lack of security and inventory controls in IT&S, in
  submitted delivery receipts and invoiced for pay-            conjunction with general disregard for property
  ment, but failed to perform according to specifica-          management controls outlined in GPO Directive
  tions and did not deliver all products. Though the           810.11B, OI was unable to determine the final dis-
  Department of Justice declined criminal prosecu-             position of 18 missing laptops. The findings of the
  tion, the investigation continues toward possible            investigation were referred to OAI, which initiated
  civil and administrative resolution.                         an audit of IT&S property management protocols.
•	 We previously reported that an OI investigation of          Specific recommendations will be outlined as part
   over-billing by a GPO print contractor was accepted         of the final audit report.
   for potential civil action by the Department of Jus-      •	An OI investigation disclosed evidence that GPO
   tice. Investigation determined that from February           employees failed to provide truthful information dur-
   2002 until February 2004 the company President              ing an administrative investigation conducted by the


                                                             S e m i a n n u a l r e p o r t t o c o n g r e ss        35
       GPO HC Office. The Department of Justice declined          referred the report of investigation to management
       the matter for prosecution and the OI referred it to       for consideration of administrative action and addi-
       management for action. During this period, at the          tional employee training in zero violence, EEO, and
       request of GPO Office of General Counsel (OGC), OI         harassment.
       agents sought affidavits from witnesses, confirming      •	An investigation was initiated after OI learned
       written reports of their earlier verbal statements. We     a former GPO employee used an official Gov-
       previously reported that GPO issued notices of intent      ernment travel card to make inappropriate pur-
       to terminate from employment four employees and            chases. Investigation determined the former
       placed them on administrative leave. Three of the          employee, who made no official trips, owed
       employees retired after receiving notice of termina-       Citibank approximately $4,989 for purchases at
       tion and the fourth received a 30-day suspension and       retail stores such as Marshalls, Macys, Target, and
       demotion. Further details will be reported when all        Walmart. The former employee was able to make
       actions are finalized.                                     these purchases because automatic and appro-
     •	The Uniform Police Branch referred allegations of          priate travel card purchasing limitations were
       a possible physical assault of a GPO contractor by         not in place. Because the government is not liable
       a GPO employee and provided video surveillance             for the former employee’s non-payment and debt
       footage of the alleged incident. OI reviewed the           collection options are still available, this matter
       video and interviewed those involved. The facts of         was not referred to the Department of Justice. The
       the case were presented to the Department of Justice       results of this investigation were referred to the
       and declined for criminal prosecution. We recently         GPO management for appropriate action. GPO




36   Off i c e o f I n s p e c t o r G e n e r a l
  now has appropriate purchasing limitations in
  place for all GPO travel cards.
•	OI investigated allegations of a GPO employee on
  workers’ compensation alleged to have provided
  landscaping services without declaring the income
  as required by the Department of Labor’s Office of
  Workers’ Compensation Programs. Although our
  investigation determined the employee was mow-
  ing lawns for a fee, we could not determine the spe-
  cific time frames of when these services were pro-
  vided or how much money was earned. As a result,
  neither the Department of Labor nor the Depart-
  ment of Justice pursued recovery action against the
  individual. Our report of investigation was referred
  to the Department of Labor and the Chief, Workers’
  Compensation Services for GPO. The Department             HC Office personnel during a recent OPM evalu-
  of Labor indicated they intend to request a second        ation of GPO’s competitive examining author-
  opinion medical evaluation to determine if the ini-       ity exercised under a delegation agreement with
  tial injury is still active.                              OPM. OPM presented findings to management
                                                            and representatives of the OIG. A written report
•	OI received allegations that an employee was using
                                                            is expected.
  GPO equipment to copy and sell digital video discs
  (DVDs) during work hours. The employee admit-
  ted that for approximately the last 3 years he has      External Administrative Cases
  sold from 75 to 100 illegally copied movies for about
                                                          •	Results of an OI investigation were referred to
  $5 per copy to GPO employees but denied using
                                                            management for consideration of suspension/
  GPO equipment to make copies of the movies. We
                                                            debarment of a printing contractor and its offi-
  found no evidence to support the allegation he was
                                                            cers/owners. The investigation was initiated based
  using GPO equipment to make illegal copies of mov-
                                                            on allegations that a GPO contractor submitted a
  ies. The Department of Justice declined criminal
                                                            fraudulent shipping receipt and invoice to GPO
  prosecution and the OI referred to management for
                                                            for payment. Our investigation revealed that in
  action. Though action is not final, a 3-day suspen-
                                                            2008 the company shipped a product with a short-
  sion was proposed.
                                                            age valued at approximately $6,547, yet billed GPO
•	OI investigated allegations that a GPO employee           the full value of $23,000. Investigation also deter-
  threatened a co-worker. He was suspended from             mined the contractor may have acted as a broker
  employment when OI reported facts surrounding             and likely subcontracted part of the predominant
  charges against him for domestic violence. Fur-           function to another company in violation of GPO
  ther investigation by OI revealed other instances         contract terms.
  of misconduct. Interviews revealed that since at
                                                          •	An OI investigation of a GPO contractor for alleged
  least 2006, the employee engaged in threatening
                                                            submission of fraudulent shipping receipts and
  and unprofessional conduct both with his super-
                                                            invoices resulted in the referral of investigative
  visors and co-workers. Results of OI’s investiga-
                                                            results to GPO management for further review and
  tion were forwarded in support of agency pro-
                                                            action. Investigation revealed testimony that the
  posed action. The employee resigned while on
                                                            contractor shorted one shipment yet billed in full,
  indefinite suspension.
                                                            substituted higher quality proofs with lower qual-
•	OI assisted OPM by conducting interviews of GPO



                                                          S e m i a n n u a l r e p o r t t o c o n g r e ss       37
       ity proofs, and attempted to invoice for overnight            tive staff, including managers of OI, held produc-
       shipping despite their shipping the proofs through            tive meetings with the GPO Acquisitions Services.
       regular mail. Two contracts were subsequently                 At the invitation of the Director of Acquisitions Ser-
       modified and discounted and the third was can-                vices, OI provided a Procurement Fraud Presenta-
       celled by the customer agency for unrelated rea-              tion to staff members.
       sons. Due to the low dollar value, this matter was          •	 Future activities are planned with Acquisitions
       not referred to the Department of Justice.                     Services, including a more detailed question and
     •	OI investigated allegations of a violation of the Buy          answer session concerning detection of fraud. A
       American Act by a GPO contractor. A GPO RPPO                   joint quality assurance field visit for purposes of
       reported the contractor shipped his product from               OI training is also anticipated.
       Canada on two occasions. Research revealed the              •	OI attended the Print Procurement Managers’
       contractor had only been awarded two small con-               meeting, with contracting supervisors from head-
       tracts. When contacted by OI, the contractor admit-           quarters and RPPOs, and responded to questions
       ted his company had no facilities in the United States        concerning reporting fraud allegations to the OIG.
       and would be ineligible for further awards. These
                                                                   •	OI monitored GPO’s significant progress toward
       investigative results were referred to the GPO Manag-
                                                                     implementation of OI MIR recommendations
       ing Director of Print Procurement and OGC for their
                                                                     relating to GPO contractors and security of PII and
       information.
                                                                     the Publication of House Document 111-37 on U.S.
     •	OI referred information to the GPO Deputy Manager,            Nuclear Sites.
       Director of Publications and Information Sales, after
                                                                   •	OI and OAI continue to strategize concerning pos-
       an investigation determined that, between July 2006
                                                                     sible proactive initiatives for detecting fraud within
       and May 2009, a GPO customer submitted 53 checks
                                                                     GPO. One such future initiative may involve recur-
       to GPO totaling approximately $5,611 not honored
                                                                     ring allegations of product substitution on GPO con-
       by GPO’s banking institution because of insufficient
                                                                     tracts, particularly in the area of paper specifications.
       funds. Though employees in GPO’s Publication Sales
       Program were instructed to screen sales orders from         •	Two OI criminal investigators have elected to seek
       the subject company, checks continued to be sub-              their designations as Certified Fraud Examiners.
       mitted and returned. Though both civil and criminal
       remedies and penalties exist for passing bad checks,
       no referral was made to the Department of Justice for
       prosecution because of GPO’s lack of internal con-
       trols. The results of this investigation were referred to
       GPO management, with suggested process improve-
       ments.


     D. Other Significant Activitie s
     While OI investigative resources were primarily
     deployed in response to reported reactive matters
     represented above, we continue other aggressive
     efforts to improve our abilities to detect, prevent,
     and investigate the loss of Government assets. The
     following summarizes other significant activities
     occurring in OI:
     •	 During this reporting period, the IG and his execu-



38   Off i c e o f I n s p e c t o r G e n e r a l
a ppen di x




APPENDIX A
Glossary and Acronyms

Glossary
Allowable Cost - A cost necessary and reasonable for the proper and
     efficient administration of a program or activity.
Change in Management Decision - An approved change in the origi-
     nally agreed-upon corrective action necessary to resolve an IG
     recommendation.
Disallowed Cost - A questionable cost arising from an IG audit or
     inspection that management decides should not be charged to
     the Government.
Disposition - An action that occurs from management’s full imple-
     mentation of the agreed-upon corrective action and identifi-
     cation of monetary benefits achieved (subject to IG review and
     approval).
Final Management Decision - A decision rendered by the GPO
     Resolution Official when the IG and the responsible GPO man-
     ager are unable to agree on resolving a recommendation.
Finding - Statement of problem identified during an audit or inspec-
     tion typically having a condition, cause, and effect.
Follow-up - The process that ensures prompt and responsive action
     once resolution is reached on an IG recommendation.
Funds Put To Better Use - An IG recommendation that funds could be
     used more efficiently if management took actions to implement
     and complete the audit or inspection recommendation.
Management Decision - An agreement between the IG and man-
     agement on the actions taken or to be taken to resolve a recom-
     mendation. The agreement may include an agreed-upon dollar
     amount affecting the recommendation and an estimated com-
     pletion date unless all corrective action is completed by the time
     agreement is reached.
Management Implication Report - A report to management issued




                 S e m i a n n u a l r e p o r t t o c o n g r e ss       39
         during or at the completion of an investigation identifying systemic prob-
         lems or advising management of significant issues that require immedi-
         ate attention.
     Material Weakness - A significant deficiency, or combination of signifi-
         cant deficiencies, that results in more than a remote likelihood that
         a material misstatement of the financial statements will not be pre-
         vented or detected.
     Questioned Cost - A cost the IG questions because of an alleged violation of a
         law, regulation, contract, cooperative agreement, or other document gov-
         erning the expenditure of funds; such cost is not supported by adequate
         documentation; or the expenditure of funds for the intended purposes
         was determined by the IG to be unnecessary or unreasonable.
     Recommendation - Actions needed to correct or eliminate recurrence of the
         cause of the finding identified by the IG to take advantage of an opportunity.
     Resolution - An agreement reached between the IG and management on the
         corrective action or upon rendering a final management decision by the
         GPO Resolution Official.
     Resolution Official - The GPO Resolution Official is the Deputy Public Printer.
     Resolved Audit/Inspection - A report containing recommendations that have
         all been resolved without exception, but have not yet been implemented.
     Unsupported Costs - Questioned costs not supported by adequate documentation.




40   Off i c e o f I n s p e c t o r G e n e r a l
Abbre viations and Acronyms
AICPA	American Institute of Certified Public
         Accountants                            PPPS	Passport Printing and Production
                                                      System
CIGIE	Council of Inspectors General on
                                                PTR	Problem Tracking Report
         Integrity and Efficiency
                                                PURL	Persistent Uniform Resource Locator
CIO	Chief Information Officer
                                                RPPO	Regional Printing Procurement Office
CPS	Certification Practices Statement
                                                SAS	  Statement on Auditing Standards
COA	Continuity of Access
                                                SCC	  Secure Credential Center
COOP	Continuity of Operations
                                                SID	  Security and Intelligent Documents
COTR	Cont ract i ng Of f icer’s Tech n ica l
         Representative                         SPF	  Secure Production Facility
DHS/CPB	 Department of Homeland Security/       SSP	  Shared Service Provider
         Customs and Border Patrol              TTP	Trusted Traveler Program
FDsys	   Federal Digital System
EEOC	Equal Employ ment Opportunit y
         Commission
FISMA	   Federal Information Security
         Management Act
FY	      Fiscal Year
GAO	Government Accountability Office
GBIS	GPO’s Business Information System
GPO	U.S. Government Printing Office
HSPD-12	 Homeland Security Presidential
         Directive-12
ICAO	International Civil Aviation
         Organization
IG 	Inspector General
IPA	Independent Public Accountant
IPv6	Internet Protocol version 6
IT	Information Technology
IT&S	Information Technology and Systems
IV&V	Independent Verification and
         Validation
MIR	Management Implication Report
OA	Organization Architects
OALC	Of f ice of Ad m i n ist rat ion/L ega l
         Counsel
OAI	Office of Audits and Inspections
OGC	Office of General Counsel
OI	Office of Investigations
OIG	Office of Inspector General
OMB	Office of Management and Budget
OPM	Office of Personnel Management
OWC	Office of Workers’ Compensation
PII	Personally Identifiable Information
PKI	Public Key Infrastructure
PO	Privacy Officer




                                                S e m i a n n u a l r e p o r t t o c o n g r e ss   41
     APPENDIX B
     Inspector General Act Reporting Requirements

         Inspector General                                                                Cross-Reference
                                 Requirement Definition
         (IG) Act Citation                                                                 Page Number(s)



         Section 4(a)(2)        Review of Legislation and Regulations                                  8




         Section 5(a)(1)        Significant Problems, Abuses, and Deficiencies                      21–32




         Section 5(a)(2)        Recommendations for Corrective Actions                              21–25




         Section 5(a)(3)        Prior Audit Recommendations Not Yet Implemented                     25–32




         Section 5(a)(4)        Matters Referred to Prosecutorial Authorities                       35–38




         Section 5(a)(5)        Summary of Refusals to Provide Information                            n/a



                                OIG Audit and Inspection Reports Issued (includes total
         Sections 5(a)(6) and
                                dollar values of Questioned Costs, Unsupported Costs,               21–25
         5(a)(7)
                                and Recommendations that Funds Be Put To Better Use)


                                Statistical table showing the total number of audit
         Section 5(a)(8)                                                                               43
                                reports and the total dollar value of questioned costs


                                Statistical table showing the total number of audit
         Section 5(a)(9)        reports and the dollar value of recommendations that                   44
                                funds be put to better use


                                Summary of prior Audit and Inspection Reports issued
         Section 5(a)(10)                                                                             n/a
                                for which no management decision has been made



                                Description and explanation of significant revised man-
         Section 5(a)(11)                                                                             n/a
                                agement decision



                                Significant management decision with which the IG is in
         Section 5(a)(12)                                                                             n/a
                                disagreement




42   Off i c e o f I n s p e c t o r G e n e r a l
APPENDIX C
Statistical Reports
Table C-1: Audit Reports With Questioned and Unsupported Costs


                                               Questioned     Unsupported
    Description                                                                              Total
                                                   Costs               Costs


    Reports for which no management decision
    made by beginning of reporting period              $0                  $0                    $0




    Reports issued during reporting period             $0                  $0                    $0




    Subtotals                                          $0                  $0                    $0




    Reports for which a management decision
    made during reporting period
      1. Dollar value of disallowed costs              $0                  $0                    $0
      2. Dollar value of allowed costs                 $0                  $0                    $0




    Reports for which no management decision
                                                                           $0
    made by end of reporting period                    $0                                        $0



    Reports for which no management decision
    made within 6 months of issuance                   $0                  $0                    $0




                                                      S e m i a n n u a l r e p o r t t o c o n g r e ss   43
     Table C-2 : Audit Reports With Recommendations That Funds
     Be Put to Better Use


                                              Number of   Funds Put To
         Description
                                               Reports     Better Use




         Reports for which no management
         decision made by beginning of
                                                      0             $0
         reporting period




         Reports issued during the
                                                      0             $0
         reporting period




         Reports for which a management
         decision made during reporting
         period
         • Dollar value of recommendations           0             $0
            agreed to by management
         • Dollar value of recommendations           0             $0
            not agreed to by management




         Reports for which no management
         decision made by the end of the
                                                      0             $0
         reporting period




         Report for which no management
         decision made within 6 months of
                                                      0             $0
         issuance




44   Off i c e o f I n s p e c t o r G e n e r a l
Table C-3 : List of Audit and Inspection Reports Issued
During Reporting Period


                                                            Funds Put To
    Reports
                                                             Better Use



    Report on Federal Digital System (Fdsys) Independent
    Verification and Validation – Ninth Quarter Report on
    Risk Management, Issues, and Traceability
    (Assessment Report 10-01, issued December 2, 2009)                 $0




    Report on the Consolidated Financial Statement Audit
    of the GPO for the FYs Ended September 30, 2009
    and 2008 (Audit Report 10-02, issued January 8, 2010)              $0




    Report on GPO’s Compliance with the Federal Infor-
    mation Security Management Act (Assessment Report
    10-03, issued January 12, 2010)                                    $0




    Report on Assessment of GPO Network Vulnerability
    Management (Assessment Report 10-04, issued
    January 19, 2010)                                                  $0




    Report on Federal Digital System (Fdsys) Independent
    Verification and Validation – Tenth Quarter Report on
    Risk Management, Issues, and Traceability
                                                                       $0
    (Assessment Report 10-05, issued March 24, 2010)




    Report on Audit of Security of GPO’s e-Passport
    Supply Chain (Audit Report 10-06, issued
    March 31, 2010)                                                    $0




    Total                                                              $0




                                                             S e m i a n n u a l r e p o r t t o c o n g r e ss   45
     Table C-4 : Investigations Case Summary


         Total New Hotline/Other Allegations Received during
         Reporting Period                                      42



         No Formal Investigative Action Required               14



         Investigations Opened by OI during Reporting          10
         Period


         Investigations Open at Beginning of                   38
         Reporting Period


         Investigations Closed during Reporting Period         15



         Investigations Open at End of Reporting Period        33



         Referrals to GPO Management                           15



         Referrals to Other Agencies                            5



         Referrals to OAI                                       0




46   Off i c e o f I n s p e c t o r G e n e r a l
Current Open Investigations by Allegation            33



Procurement Fraud                                    21             64%



Employee Misconduct                                   7             21%



Workers’ Compensation Fraud                           3             9%



Other Investigations                                  2             6%




                                            ■■  Procurement   Fraud
                                            ■■  Employee  Misconduct
                                            ■■  Workers’ Compensation Fraud

                                            ■■  Other Investigations




                                                              S e m i a n n u a l r e p o r t t o c o n g r e ss   47
     Table C-5 : Investigations Productivity Summary

         Arrests	                                                    0

         Total Presentations to Prosecuting Authorities	             7

         Criminal Acceptances	                                       0

         Criminal Declinations	                                      7

         Indictments	                                                0

         Convictions	                                                0

         Guilty Pleas	                                               0

         Probation (months)	                                         0

         Jail Time (days)	                                           0

         Restitutions	                                               0

         Civil Acceptances	                                          0

         Civil Demand Letters	                                       0

         Civil Declinations	                                         0

         Amounts Recovered Through Investigative Efforts	            0

         Total Agency Cost Savings Through Investigative Efforts	    0

         Total Administrative Referrals	                            15

         Contractor Debarments (Referral)	                           1

         Contractor Suspensions	                                     0

         Contractor Other Actions	                                   0

         Employee Suspensions (1 Proposed)	                          2

         Employee Terminations (Proposed)	                           1

         Employee Other Actions (resignations)	                      3

         Other Law Enforcement Agency Referrals	                     4

         Inspector General Subpoenas	                               12




48   Off i c e o f I n s p e c t o r G e n e r a l
     U.S. Government Printing Office
       Office of Inspector General
732 North Capitol Street, NW, Washington, D.C. 20401
          202.512.0039 • www.gpo.gov/oig
OIG Hotline 1.800.743.7574 • gpoighotline@gpo.gov
